 DOE/IG-0026
                            United States Department of Energy




                              Office of Inspector General

Inspector General's
Message - Page 1

The Department's
Management Challenges
and Significant OIG
Accomplishments
Page 3

Other Significant
Accomplishments
Page 37




OIG Reports Issued
and Followup Action
Process - Page 46

Statistical Data-Savings,
Questioned Costs,
Hotline Statistics, and
Fines, Settlements
and Recoveries
Page 53

                                  April 1 to September 30, 2002
                            October 30, 2002



The Honorable Spencer Abraham
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Abraham:

I am pleased to submit the Office of Inspector General’s Semiannual Report to
Congress for the 6-month period ending September 30, 2002. The Report reflects
our continuing commitment to focus the Office of Inspector General efforts on the
issues and concerns most critical to you, the Administration, and the Congress.

The tragic events of September 11, 2001, have impacted the way this Office
views its mission. During this reporting period, we devoted significant resources
to critical issues relating to the national security. In particular, we increased our
already substantial commitment to helping the Department identify and evaluate
potential systemic and situational vulnerabilities in the areas of cyber and physical
security, counterintelligence, and nuclear materials and critical infrastructure
protection. Although the Department has taken a number of positive actions to
correct certain security-related deficiencies, our reviews continue to identify a
need for improvement in this critical management challenge area.

The Report also highlights other significant management challenges and includes
Office of Inspector General recommendations for positive change in the
Department’s programs and operations.

We look forward to working with you on matters of mutual interest.

                                                   Sincerely,




                                                  Gregory H. Friedman
                                                  Inspector General

Enclosure




                            Printed with soy ink on recycled paper
                          At Your Service




                    THE INSPECTOR GENERAL'S           1
                    MESSAGE
Table of Contents




                    MANAGEMENT CHALLENGES             3
                    AND SIGNIFICANT ACCOMPLISHMENTS



                    OTHER SIGNIFICANT                 37
                    ACCOMPLISHMENTS



                    REPORTS ISSUED                    46



                    STATISTICS                        53
                                                                          At Your Service



                                                               I        am pleased to provide the Office of Inspector
                                                               General’s Semiannual Report to Congress highlighting
                                                               significant accomplishments for the reporting period April 1 to
                                                               September 30, 2002. This reporting period marks the
Inspector General's Message



                                                               Department’s and the Office of Inspector General’s 25th
                                                               anniversary celebration. My colleagues and I feel privileged to
                                                               have been able to serve the taxpayer and the Government at an
                                                               agency that has helped tackle some of the most important
                                                               challenges facing the Government in the past 25 years. From
                                                               winning the cold war, to combating terrorism, to exploring the
                                                               frontiers of science, including achieving staggering
                                                               breakthroughs in cancer research at our national laboratories,
                                                               the Department has played a tremendous role in the well being
                                                               of our nation. To the extent we have been able to help make
                                                               these critical missions more efficient and effective, we have
                                                               been honored to do so.

                                                               During this reporting period, we continued to assist the
                                                               Department and the Congress by identifying opportunities
                                                               to improve program performance and accountability,
                              Gregory H. Friedman              achieve cost savings, and return hard dollars to the Federal
                               Inspector General               Government.

                                                               As part of our continuing efforts to ensure that we are
                                                               providing timely, relevant, and effective assistance to the
                                                               Department, including the National Nuclear Security
                                                               Administration, representatives of this Office have been
                                                               traveling, over the past several months, to meet with senior
                                                               leadership at each of the Department’s major sites. These
                                                               meetings have afforded us the opportunity to engage in
                                                               dialogues on the issues of highest concern, thereby helping us
                                                               to ensure that we are meeting the needs of our customers.
                                                               September 11, 2001, is a day we must not, and will not forget.
                                                               It has impacted the way we view our mission. In that vein, the
                                                               Department of Energy has a vast array of activities designed to
                                                               help ensure the safety and security of the American people.
                                                               Since September 11th, we significantly increased our already
                                                               substantial commitment to helping the Department identify
                                                               and evaluate potential systemic and situational vulnerabilities




                               Additional information on the OIG, including the full text of its public reports and Department
                               management’s comments, can be found on the OIG website – www.ig.doe.gov.                          1
             At Your Service

    in the areas of cyber and physical security, counterintelligence,
    and nuclear materials management and critical infrastructure
    protection.

    Furthermore, the OIG is committed to serving as a
    facilitator of management reform by continuing to
    evaluate program performance in critical areas central to
    the President’s Management Reform Agenda, as well as
    the Secretary’s mission priorities.

    We have summarized our most recent work on these issues
    in this report and look forward to being of continued
    assistance in the future.




2
                                                                            At Your Service



                                                                F         or the past several years, at the request of
                                                                congressional leadership, the Office of Inspector General
                                                                (OIG) has reviewed the most significant management and
                                                                performance challenges facing the Department. This effort,
Significant Accomplishments
Management Challenges and




                                                                now required by the Reports Consolidation Act of 2000, is
                                                                conducted on an annual basis and includes an assessment of
                                                                the agency’s progress in addressing the following management
                                                                challenge areas, which most recently (2002) have been
                                                                identified as:
                                                                     •   Stockpile Stewardship
                                                                     •   Security and Safety
                                                                     •   Information Technology
                                                                     •   Environmental Standards and Stewardship
                                                                     •   Contract Administration
                                                                     •   Performance Management
                                                                     •   Research and Development Investment
                                                                     •   Infrastructure and Asset Management
                                                                     •   Energy Supply
                                                                     •   Human Capital

                                                                The following are highlights of the OIG accomplishments
                                                                in the management challenge areas:

                                                                     Stockpile Stewardship
                                                                In 1993, the President and Congress reaffirmed the moratorium
                                                                on underground nuclear testing and directed that a science-
                                                                based Stockpile Stewardship Program be developed to
                                                                maintain the Nation’s stockpile of nuclear weapons. The
                                                                Department’s plan describes stockpile stewardship as one of
                                                                the most complex, scientifically technical programs ever
                                                                undertaken. The program consists of surveillance,
                                                                experimentation, computation, and production. Its focus is to
                                                                maintain “high confidence” in the safety and reliability of the
                                                                stockpile without nuclear testing. Responsibility for stockpile
                                                                stewardship rests with the National Nuclear Security
                                                                Administration (NNSA). The OIG reviews continue to


                              Additional information on the OIG, including the full text of its public reports and Department
                              management’s comments, can be found on the OIG website – www.ig.doe.gov.                          3
                      At Your Service

              disclose difficulties the Department is having with meeting its
              critical stockpile stewardship mission. Recent examples
              include:

              Underground Nuclear Test Readiness is at Risk
              Due to the Lack of a Comprehensive Plan
              Prior to 1992, the Department relied on underground testing at
              its Nevada Test Site to ensure the safety, reliability, and
              performance of the Nation’s nuclear weapons. When the
              United States placed a moratorium on underground testing,
              the Department implemented a science-based Stockpile
              Stewardship Program, designed to certify that the weapons
    economy

              are safe and, if needed, will work as intended. According to
              Presidential Decision Directive, the United States can resume
              underground nuclear testing at the Nevada Test Site under
              certain circumstances. The Presidential Decision Directive
              mandates that the Department be prepared, on a contingency
              basis, to restart underground testing within a 3-year
              timeframe. An audit was conducted to determine if the
              Nevada Operations Office (Nevada) has the capability to
              conduct an underground nuclear test within the required
              timeframe if called upon to do so.

              The audit found that Nevada’s ability to conduct an
              underground nuclear test within the specified timeframe is at
              risk. Specifically, key aspects of the Department’s testing
              process and infrastructure have experienced significant
              degradations in the last decade, including: (1) a decline in the
              number of employees with testing experience; (2) the
              deterioration of necessary systems and equipment; (3) the
              inability to keep pace with new technology; and (4) delays in
              updating required safety studies. The challenges posed by
              these issues were heightened because Nevada did not have a
              comprehensive plan to address or overcome them. If the
              Department becomes unable to certify that testing can resume
              within the 24- to 36-month window, it could eventually lose
              its ability to ensure weapons reliability through underground
              testing, should such testing become necessary.

              The OIG recommended that the Deputy Administrator for
              Defense Programs direct Nevada to: (1) establish a
              methodology to hire or train personnel with appropriate skills
              to fill key and critical positions, should the need for these


4
                     At Your Service

             individuals arise; (2) develop a plan to validate aging assets
             and, if necessary, identify potential replacement equipment,
             the cost of the replacement, and the lead-time necessary to
             obtain it; (3) prepare generic portions of nuclear explosive
             safety documentation and create a plan to obtain appropriate
             authorization basis approval within the required timeline for
             resuming underground nuclear testing; (4) extend the
             Decision Support System computer simulation model to
             incorporate all test organizational units and changes in
             personnel, equipment, and safety requirements; and
             (5) update the Test Readiness Program requirements
             overcome by recent events in its policy on Underground
             Nuclear Testing.
efficiency

             Department management agreed with recommendations 1 and
             3 and has initiated corrective action. Management did not
             agree with recommendations 2 and 4 and did not address
             recommendation 5. Management did, however, offer
             alternative approaches to achieving the overall goal.
             (IG-0566)

             Delays Likely in Department of Energy’s Pit
             Production Project
             The Department’s Stockpile Stewardship Plan describes the
             NNSA’s strategy for ensuring high confidence in the safety
             and reliability of the nuclear weapons stockpile. This plan
             sets forth a specific schedule to manufacture during Fiscal
             Year (FY) 2003 a certifiable pit, a key component needed to
             initiate a nuclear weapon. An audit was conducted to
             determine if the NNSA and the Los Alamos National
             Laboratory (Los Alamos), which is managed and operated by
             the University of California, would be able to produce a
             certifiable pit according to the schedule set forth in the
             Stockpile Stewardship Plan and the W88 Pit Manufacturing
             and Certification Integrated Plan.

             The audit found that the Department’s ability to produce a
             certifiable pit on schedule was at risk. As of December 2001,
             over half of the approximately 40 nuclear manufacturing
             processes that will be used to produce pits were behind
             schedule. While Los Alamos asserted that the delays
             occurred because the original schedule was too aggressive,
             the OIG identified deficiencies in key schedule controls,


                                                                          5
                                                     At Your Service

                                            including the lack of a robust critical path linking required
                                            work to project milestones. Without a certified pit, NNSA
                                            will be unable to conduct the destructive surveillance tests
                                            used to establish weapon reliability for the annual
                                            certification to the President.

                                            The OIG recommended that the NNSA Pit Project Manager
                                            direct Los Alamos to: (1) logically link related work
                                            activities for manufacturing and certification within the
                                            critical path; (2) periodically review for accuracy all changes
                                            entered into the project management software using approved
                                            baseline change procedures; (3) ensure that all work packages
                                            have deliverables, milestones, and assumptions identified for
                                            the work scope described in the work packages; and (4) “lock
                                            in” target dates for work completion that have been entered
                                            into the project management software. The NNSA’s Deputy
                                            Administrator for Defense Programs agreed with the OIG
                                            recommendations. (IG-0551)

                                            Reliability of Depleted Uranium Operations at
                                            the Y-12 National Security Complex
                                            Currently, the Y-12 National Security Complex in Oak
                                            Ridge, Tennessee, (Y-12) is the only site capable of
                                            manufacturing and remanufacturing certain unique
                                            components necessary for assembling nuclear weapons.
                                            Many of these components are produced at Y-12’s Depleted
                                            Uranium and Binary Metal Cycle Operations facility.
                                            Because the Depleted Uranium facility is the sole producer of
                                            these key components, an audit was conducted to determine if
                                            NNSA can ensure its reliability. Y-12 is currently managed
                                            and operated by Department contractor, BWXT Y-12, LLC.

                                            The audit determined that, although the Depleted
                                            Uranium facility is currently able to manufacture com-
    Building 9201-5 Alpha 5 at Y-12 Plant
            Oak Ridge, Tennessee            ponents, NNSA cannot ensure the continued reliability of
                                            its process. Much of the production equipment presently
                                            in use is outdated, damaged, or beyond repair. Further,
                                            while some new equipment had been purchased, it had
                                            not been installed and had begun to degrade. This
                                            occurred because Y-12 had not completed a previous
                                            consolidation effort, had placed key projects on hold, and
                                            had not established useful performance-based incentives.
                                            Furthermore, increased maintenance costs were being


6
                        At Your Service

                incurred and prior investments in new equipment were at
                risk. The audit concluded that if the Depleted Uranium
                process fails, NNSA may not be able to meet its weapons
                stockpile requirements.

                The OIG recommended that NNSA and Y-12 undertake a
                series of immediate actions to enhance maintenance
                procedures and ensure continued depleted uranium
                operations. Management agreed with the recommendations.
                (IG-0570)
effectiveness
                   Security and Safety
                The focus on security and safety efforts within the
                Department have substantially increased in light of
                September 11. Although the Department continues to make
                progress to strengthen its security and safety posture, OIG
                reviews continue to demonstrate that additional controls are
                needed. Specifically, OIG reports identified the following
                weaknesses in this area:

                Vulnerabilities Found in the Department’s
                Unclassified Cyber Security Program 2002
                As required by the Government Information Security Reform
                Act, the OIG performed its second annual evaluation of the
                Department’s unclassified cyber security program. This
                evaluation was conducted to determine whether the program
                sufficiently protected Department data and information
                systems. The evaluation determined that, while the
                Department had taken a number of positive steps to improve
                its unclassified cyber security program, many of its critical
                information systems remained at risk. Cyber protection
                efforts continued to suffer from program management,
                planning, and execution weaknesses. As with the OIG’s
                initial review in FY 2001, it was noted that the Department
                had not: (1) consistently implemented a risk-based cyber
                security approach; (2) assured continuity of operations
                through adequate contingency and disaster recovery planning;
                (3) strengthened its incident response capability by reporting
                all computer incidents; (4) ensured that employees with
                significant security responsibilities had received adequate
                training; and (5) adequately addressed configuration
                management and access control problems.


                                                                           7
                      At Your Service

              These vulnerabilities existed because the Department had not
              strengthened its cyber security policy and guidance,
              implemented a cyber security performance measurement
              system, or established an effective self-assessment program.
              Persistent problems placed the Department’s critical systems
              at risk of unauthorized use and increased the potential for
              compromise of sensitive operational and personnel-related
              data.

              The OIG recommended a series of corrective actions designed
              to improve cyber security within the Department.
              Department management generally agreed with the OIG’s
              findings and recommendations, but did not agree that the
              recommendation to develop and finalize detailed cyber
    economy

              security policy and guidance was supported by the OIG
              report’s finding. In addition, management cited a number of
              actions underway, including progress towards developing a
              new performance metrics program and a program to improve
              awareness. (IG-0567)

              Privatization Effort Results in Increased Costs
              In January 1997, Westinghouse Savannah River Company
              (Westinghouse), the management contractor at the
              Department’s Savannah River Site, submitted to the
              Department a privatization proposal requesting approval to
              form a “spin-off” company for the performance of safety
              management services. It was proposed that the “spin-off”
              new company, Westinghouse Safety Management Solutions,
              Incorporated (WSMS), would be a wholly owned subsidiary
              of Westinghouse and would be comprised of Westinghouse
              personnel already performing safety management services at
              the Site. To justify the spin-off, Westinghouse prepared a
              make-or-buy analysis indicating that by using WSMS the
              Department would save at least $11.5 million over 5 years.
              The Department approved the proposal and allowed
              Westinghouse to enter into a sole-source, cost-reimbursable
              agreement with WSMS beginning in FY 1998.

              The OIG conducted an audit to determine whether the
              privatization of safety management services at the Savannah
              River Site has reduced the Department’s cost.




8
                     At Your Service

             The audit found that Westinghouse’s privatization effort has
             actually increased the Department’s operating costs by about
             $2 million per year. It was determined that the Westinghouse
             privatization proposal contained an inaccurate make-or-buy
             analysis and the Department did not thoroughly evaluate the
             merit of the proposal. In addition, the Department did not
             require competitive bids. In fact, Department officials
             reported that cost was not a deciding factor in approving the
             establishment of WSMS. Rather, the decision was based
             primarily on a desire to avoid layoffs of safety management
             engineers. As a result, from 1998 through 2001, the
             Department has incurred approximately $8 million in
             unnecessary costs and an additional $6.3 million in
efficiency

             unnecessary costs could accrue during the remainder of the
             contract.

             The OIG recommended that the Manager, Savannah River
             Operations Office: (1) competitively acquire safety
             management services at the Savannah River Site as soon as
             practical; (2) require that Westinghouse prepare thorough and
             accurate make-or-buy analyses for privatization initiatives;
             (3) ensure that Westinghouse seeks competitive bids when
             qualified bidders are available for future procurements unless
             there is a compelling reason for using another contracting
             method; (4) direct the contracting officer to thoroughly
             evaluate make-or-buy analyses prepared by Westinghouse
             prior to selecting least-cost alternatives; and (5) direct
             operations office personnel to perform follow-up reviews of
             privatization initiatives to determine whether the initiatives
             actually reduce overall costs.

             Department management agreed with recommendations 2, 3,
             and 4 and has initiated corrective action. Management
             partially concurred with the first recommendation, indicating
             that under the Westinghouse contract and WSMS agreement,
             the Department has the option to seek competition for safety
             management services or to reduce fees if costs for these
             services are deemed unreasonable. With regard to
             recommendation 5, management again partially concurred,
             noting that while the Department was, in fact, monitoring
             WSMS cost and performance, not all privatization activities
             are implemented solely to generate cost savings. (IG-0559)




                                                                        9
                             At Your Service

                     Risk Management Weaknesses in the
                     Department’s Remote Access Program for
                     Unclassified Information Systems
                     Like most private sector and Government organizations, the
                     Department has an aggressive program to provide its Federal
                     and contractor personnel with the ability to remotely access a
                     number of unclassified information systems. Based on
                     several recent investigative cases relating to attempted
     effectiveness
                     intrusions into the Department’s information systems, an
                     audit was initiated to assess the Department’s performance in
                     managing the risk associated with remote access to
                     unclassified information systems.

                     The audit found that most of the offices reviewed had not
                     adequately protected information systems from unauthorized
                     remote access. Of the 13 organizations included in the OIG
                     review, 10 had not considered the risk associated with remote
                     access when developing cyber security protection plans; 9 had
                     not developed specific guidance addressing remote access
                     security requirements; and 9 had not required the use of
                     protective measures such as personal firewalls and up-to-date
                     virus protection and systems software. Inadequate protective
                     measures over remote access placed the Department’s critical
                     unclassified information systems at risk of data tampering,
                     fraud, disruptions in critical operations, and inappropriate
                     disclosure of sensitive or Privacy Act information.

                     The OIG recommended that Department management:
                     develop and implement protective measures to better enforce
                     requirements for risk assessments; (2) provide additional
                     guidance for security implementation and evaluation; and
                     (3) establish performance measures related to remote access
                     risk mitigation.

                     Department management pledged to develop new security
                     policy and to improve security planning. Also, management
                     stated that direction had been given to specifically address
                     remote access security during the self-assessment process.
                     (IG-0568)




10
                  At Your Service

          Weaknesses in the Federal Energy Regulatory
          Commission’s Unclassified Cyber Security
          Program 2002
          As required by the Government Information Security Reform
          Act, the OIG performed an evaluation to determine whether
          the Federal Energy Regulatory Commission’s (Commission)
          cyber security program sufficiently protected Commission
          data and information systems.

          The audit found that, while the Commission had implemented
          a number of protective measures, certain critical information
          systems remained at risk. Specifically, the Commission had
economy

          not: (1) developed system specific security plans; (2) assured
          continuity of operations through adequate contingency and
          disaster recovery planning; (3) implemented an effective
          cyber security training program; and (4) adequately addressed
          configuration management and access control problems. In
          addition, persistent vulnerabilities existed because the
          Commission had not provided adequate management
          attention to implementing an effective cyber security
          program.

          The OIG recommended that the Commission Chairman:
          (1) clarify roles and authorities for the Chief Information
          Officer related to the development and implementation of a
          Commission-wide cyber security protection program;
          (2) ensure that cyber security plans are finalized and that
          mission critical systems are identified; (3) ensure that cyber
          security objectives are given appropriate priority within the
          agency and cyber security costs are included in the system
          development life cycle; and (4) direct the establishment of
          performance goals, and an associated metrics system, for
          measuring progress in improving cyber security and
          correcting known weaknesses. Management concurred with
          the OIG’s findings and recommendations. (IG-0569)




                                                                      11
                          At Your Service

                  Security Improvements Needed at West Valley
                  Demonstration Project
                  This inspection reviewed issues related to the security posture
                  at the West Valley Site, which is managed and operated by
                  West Valley Nuclear Services. West Valley is a former
                  commercial reprocessing facility for spent nuclear fuel.
                  Pursuant to the West Valley Demonstration Act of 1980, the
                  Department is vitrifying high-level waste, disposing of low-
                  level and transuranic waste, transporting solidified material,
                  and decontaminating and decommissioning materials used
                  during the Project. The classified report identified several
                  management challenges and opportunities for improvement in
     efficiency

                  the overall security posture at West Valley. Management
                  concurred with the OIG recommendations. (IG-0563
                  Classified)

                  Sentencing of Two Individuals for Theft and
                  Illegal Manufacture of False NNSA Federal
                  Agent Credentials

                  As previously reported, a joint investigation with the
                  OIG and the Federal Bureau of Investigation (FBI)
                  determined that a printing company employee tasked to
                  make NNSA credentials stole the print company
                  prototypes necessary to create such credentials. A
                  second individual, a private citizen, later removed the
                  prototypes from the employee’s residence and attempted
                  to create valid NNSA Federal Agent credentials. The
                  private citizen was convicted in connection with the
                  illegal production and possession of the false credentials.

                  During the current reporting period, the private citizen was
                  sentenced to 2 years’ probation. The court ordered this
                  individual to pay $4,700 in restitution to the Department and
                  $100 in court costs. Additionally, the printing company
                  employee pleaded guilty to one misdemeanor count of
                  embezzlement. This individual was sentenced to 1-year
                  probation and was ordered to pay one-half of the $4,700 in
                  restitution and $25 in court costs. In response to an OIG
                  Administrative Report to Management regarding this issue,
                  the Department outlined a new process for overseeing the
                  control and inventory of credential stock. (I00DN006)



12
                        At Your Service

                Inspection Leads to Nationwide Review of the
                Department’s Fresh Pursuit Policies and
                Practices
                The OIG conducted an inspection of the fresh pursuit policies
                and practices of four Department sites. Fresh pursuit is the
                immediate pursuit for the purpose of preventing the escape or
                effecting the arrest of fleeing suspected criminals who are in
                unauthorized control/possession of nuclear weapons, weapons
effectiveness
                components, and/or special nuclear material. The objective
                of this classified inspection was to determine if Department
                policies regarding fresh pursuit were consistently followed at
                the four sites.

                Even though this inspection was focused on activities
                occurring at four specific sites, the inspection caused
                Department management to perform a nationwide review of
                the fresh pursuit policies and practices at all Department
                National Laboratories. The far-reaching impact of this report
                has assisted the Department in improving preparedness of
                Department protective forces against outside attacks.
                (IG-0577 Classified)

                Followup Security Reviews Indicate Positive
                Departmental Action
                The Department has long played a critical role in the national
                security mission, and the OIG has always taken an active role
                in reviewing the Department’s security activities. Since the
                events of September 11, 2001, however, the OIG has focused
                additional resources on the Department’s security-related
                activities. During this period, the OIG completed several
                followup inspections that addressed whether the Department
                was taking appropriate action on recommendations made in
                earlier security-related inspection reports. Specific areas of
                review included: (1) the process for transmitting classified
                documents; (2) the progress being made on executing the
                Department’s counterintelligence implementation plan;
                coordination activities with State, local, and tribal officials
                regarding shipments of nuclear weapons, nuclear weapons
                components, and special nuclear materials; and (4) the export
                licensing process as it relates to foreign national visits.




                                                                            13
                                             At Your Service

                                     The OIG found that the Department had made progress in
                                     implementing the recommendations in previous OIG reports
                                     and made suggestions to enhance future implementation
                                     activities. For example, the Department issued for comment
                                     a draft directive on export controls intended to better
                                     delineate the roles and responsibilities of hosts of foreign
                                     nationals. The Department also issued for comment a draft
                                     award fee contract clause and a civil penalties rule designed
                                     to hold contractors accountable for security incidents, such as
                                     an improperly transmitted classified document. In addition,
                                     the Department continues to make progress in executing the
                                     counterintelligence implementation plan.

                                     Further, with respect to nuclear shipment coordination
                                     activities, the Department sent letters to the Governors of the
                                     48 contiguous States providing information on these activities
                                     and requesting points of contact for law enforcement and
                                     emergency management entities. In addition, a memorandum
                                     of understanding was signed between the Department and the
                                     Department of Defense to allow the Department access to
                                     military installations in the event that a nuclear shipment
                                     requires a “safe haven.” The OIG suggested that Department
                                     officials take further action to obtain and maintain accurate
     Did you know?                   information regarding points of contact, update applicable
                                     Department directives and manuals, and establish target dates
     The Federal Government’s        for accomplishing management actions.
     investment in information
     technology is estimated to
     be $50 billion for 2003. This      Information Technology
     investment makes the Federal
     Government the largest buyer    Effective information technology (IT) management is
     of information technology in    essential to the Department’s performance of its multifaceted
     the world.
                                     mission. While the Department has taken a number of
     Source: Information             actions designed to improve the overall management of IT
     Technology Investments,         resources, additional improvements in this critical area are
     Budget of the United States,    still needed. OIG reviews completed during this reporting
     Fiscal Year 2003
                                     period provided recommendations on ways in which the
                                     Department could enhance the performance of IT activities.

                                     Improvements Needed in Redesign and
                                     Modernization of the Department’s Nuclear
                                     Materials Management Safeguard System
                                     Since 1965, the Department has maintained the Nuclear
                                     Materials Management Safeguard System (NMMSS). This


14
                  At Your Service

          system is a major component of the Government’s nuclear
          materials accounting system and contains aggregate high-
          level data on quantity as well as individual transaction data on
          shipments of nuclear materials both internal and external to
          the United States. An audit was conducted to assess the
          Department’s efforts to redesign or modernize the NMMSS
          and to determine whether such efforts were consistent with
          the Corporate Systems Information Architecture.

          The audit determined that the Department had not adequately
          managed its system redesign and modernization activities for
          the NMMSS. Furthermore, planned and ongoing nuclear
          materials accounting systems development activity was not
          always consistent with the Corporate Systems Information
economy

          Architecture. For example, the Department had no plans to
          complete an initiative to demonstrate the feasibility of a
          corporate-level nuclear materials accounting solution.
          Additionally, organizations were allowed to continue to
          develop or upgrade accounting and production related
          systems at a projected cost of over $7.5 million. The
          Department also undertook a major redesign of NMMSS
          without providing the support or site-level funding necessary
          to ensure success of the effort. Furthermore, the Department
          did not meet requirements of the Clinger-Cohen Act of 1996
          and Office of Management and Budget implementing
          guidance to maximize the value of investments by developing
          and implementing an information technology architecture that
          requires a structured and disciplined approach to systems
          development.

          While the NMMSS redesign effort will provide a number of
          improvements in accounting for nuclear materials, it will not
          achieve the level of standardization envisioned by the Nuclear
          Materials Stewardship Initiative. The Stewardship Initiative,
          a study conducted by the Department to develop a means of
          improving materials management responsibilities,
          recommended a corporate-level nuclear materials accounting
          solution. Because of its fragmented management approach,
          the Department may not realize significant savings from
          integrating its nuclear materials accounting systems that were
          identified by the initial sponsors of the Stewardship Initiative.

          To facilitate modernization of the Department’s nuclear
          materials accounting systems, the OIG recommended that the
          Administrator, NNSA, and the Office of Security, in


                                                                       15
                          At Your Service

                  coordination with the Chief Information Officer:
                  (1) develop a coordinated approach and select a final
                  alternative for modernizing nuclear materials accounting
                  information systems that is consistent with the Department’s
                  Corporate Systems Information Architecture as well as
                  security and program specific operational needs; and (2)
                  impose a moratorium on development efforts to minimize
                  redundancy during the process of developing and selecting a
                  modernization alternative. Unless necessary to address
                  emergencies, development should be limited to maintaining
                  site-level systems and other nuclear materials accounting
                  information systems in a steady state. The OIG also
                  recommended that the Department’s Chief Information
     efficiency

                  Officer update the directive governing information
                  management systems development.

                  The Office of Security and the Chief Information Officer
                  shared many of the OIG concerns on the nuclear
                  materials modernization initiatives and generally agreed
                  with the OIG recommendations. The NNSA did not
                  concur with the OIG recommendations and indicated that
                  it had unique requirements that may not be served by a
                  corporate-level solution. Subsequent to the reply, NNSA
                  has agreed and is currently leading a Department E-
                  Government initiative to develop a corporate approach to
                  nuclear materials management. (IG-0556)

                  Hacker Sentenced for Unauthorized Access to
                  Government Computers

                  As previously reported, the subject of a joint investigation
                  with the FBI pleaded guilty to one felony count of violating
                  18 U.S.C. Section 1030 (Fraud and Related Activity in
                  Connection with Computers). The investigation determined
                  that an individual gained unauthorized access to Government-
                  owned computers at one of the Department’s National
                  Laboratories. The individual, a private citizen, modified data
                  files and downloaded budget material from an unclassified
                  computer network.

                  During this reporting period, the individual was sentenced to
                  6 months’ home detention, 4 years’ probation, and 400 hours
                  of community service and ordered to pay restitution of
                  $20,000. (I00TC007)


16
                        At Your Service

                Former Contractor Employee Pleads Guilty to
                Misuse of Government Computers

                An OIG investigation determined that a contractor employee
                at the Rocky Flats Site used four Government-owned
                computers to access and transfer child pornography over the
                Internet. Computer forensic media analysis disclosed the
                presence of 65 images of child pornography and 12 child
                pornographic movies on the computer.
effectiveness
                The contractor employee was terminated and subsequently
                pleaded guilty to one felony count of violating 18 U.S.C.
                Section 2252A (Possession of Child Pornography).
                Sentencing is pending. (I01TC020)

                Subcontractor Employee Misuses Government
                Computer
                The OIG received information that a subcontractor employee
                at the Department’s Hanford Site was inappropriately using a
                Government assigned computer. The investigation
                determined that over a 5-month period the employee used a
                Government computer to access non-work related Internet
                sites and submitted falsified time cards, which resulted in
                payment of salary and benefits for the 325 labor hours spent
                accessing these sites.

                Pursuant to a civil settlement agreement with the U.S.
                Attorney’s Office for the Eastern District of Washington, the
                employee agreed to reimburse the Government $16,930 to
                resolve violations of the Civil False Claims Act. The court
                also ordered the employee to pay various fees totaling $170.
                (I0IRL00l)

                Contractor Employee Misuse of a Government
                Computer
                An OIG investigation determined that a contractor employee
                at the Department’s Oak Ridge National Laboratory used a
                Government computer to access adult pornographic images
                over the Internet. The U.S. Attorney’s Office for the Eastern
                District of Tennessee declined prosecution in favor of
                administrative remedies.



                                                                            17
                                              At Your Service

                                      The OIG issued an Administrative Report to Management
                                      reporting the results of the investigation and making a number
                                      of recommendations. Management informed the OIG that:
                                      (1) administrative action was taken against the contractor
                                      employee; (2) the employee’s security clearance was
                                      recommended for suspension; (3) policies were clarified
                                      regarding internal roles and responsibilities for review of
                                      computer related abuse; and (4) written reminders were issued
                                      reinforcing awareness of the misuse of Government
                                      resources. (I0lOR005)

                                      Misuse of a Government Computer by a
                                      Department Employee
                                      An OIG investigation determined that a Berkeley Site Office
                                      employee used a Government issued computer to download
                                      and view adult pornographic images. The U.S. Attorney’s
                                      Office for the Northern District of California deferred
                                      criminal prosecution in favor of administrative action. The
                                      OIG issued an Administrative Report to Management
                                      concerning the investigative findings. In response to the OIG
     Did you know?
                                      report, the Department suspended the employee for 5
     The Department’s                 workdays. (I02TC015)
     Environmental Management
     Program is the largest
     environmental cleanup and
                                         Environmental Standards and
     stewardship program in the
                                         Stewardship
     world, encompassing activities
     in more than 30 states and       The Department faces significant environmental challenges at
     territories.                     its facilities due to past operations that left a legacy of
     Source: Overview of
                                      unacceptable risk to the environment. These circumstances
     Environmental Management’s       dictate that continued high priority must be given to
     Closure Site Program, EM         evaluating and correcting the impacts of past practices and
     Website                          minimizing the possible adverse impacts of present and future
                                      activities. The Department’s goal is to cleanup as many sites
                                      as possible by 2006. While the Department has implemented
                                      an aggressive plan to accelerate cleanup of its contaminated
                                      sites, OIG reviews continue to disclose the need for increased
                                      management attention to achieving its goal. The OIG
                                      completed the following reviews of this important challenge
                                      area:




18
                   At Your Service

          The Department Needs to Better Evaluate
          Necessity and Consider Less Costly Alternatives
          When Planning Idaho Construction Projects
          The Idaho Operations Office (Idaho) has a 5-year plan to
          construct or upgrade facilities at the Idaho National
          Engineering and Environmental Laboratory. Idaho National
          Engineering and Environmental Laboratory is managed and
          operated by a management contractor. The plan covers Fiscal
          Years 2001 through 2005 construction projects, collectively
          valued at $3.3 billion. The largest single project in the 5-year
          plan is a waste vitrification facility that, by itself, is expected
          to cost $2.5 billion. The vitrification facility would treat
economy

          sodium-bearing liquid waste (liquid waste) and high-level
          radioactive calcine waste (solid waste). A 1995 Settlement
          Agreement between the Department and the State of Idaho
          established milestones for removing both types of waste from
          the State over the next several decades.

          In 1995, the OIG issued a report on the Audit of Construction
          Management at the Idaho National Engineering Laboratory
          (WR-B-96-03), in which the OIG questioned the need for a
          number of planned construction projects. Specifically, that
          audit found that Idaho was not consistently verifying the need
          for projects or identifying and evaluating alternatives. In
          light of such findings, the current audit was conducted to
          determine whether alternatives to constructing the waste
          vitrification project were given adequate consideration.

          The current audit found that Department officials were aware
          of less costly alternatives to construction of the vitrification
          facility but failed to adequately consider these options. These
          options would allow Idaho to treat the liquid waste by
          upgrading an existing facility for as little as $80 million
          (estimated project cost) and defer action on the solid waste
          until technical uncertainties involving disposition of the solid
          waste are resolved. The Department chose not to consider
          alternative approaches because it interpreted the Settlement
          Agreement to require that Idaho’s waste be “road ready” by
          the milestone date of 2035 and judged that vitrifying the
          waste was the only treatment process that would meet this
          milestone. As a result, the Department may spend significant
          funds to construct a facility that may ultimately prove to be
          unnecessary.


                                                                         19
                                                     At Your Service

                                            The OIG recommended that the Assistant Secretary for
                                            Environmental Management require Idaho to fully evaluate
                                            alternatives to constructing the waste vitrification facility and
                                            to negotiate appropriate alternatives with the State of Idaho.
                                            Department management fundamentally agreed with the audit
                                            conclusions and noted that the Office of Environmental
                                            Management recently decided to modify the current baseline
                                            and, potentially, the treatment alternative for Idaho high-level
                                            waste, pending the results of further study and acquisition
                                            activities. (IG-0549)

                                            Department Will Not Meet K Basin Spent Fuel
                                            Removal Milestones
                                            The Department has been storing 2,100 metric tons of spent
                                            nuclear fuel at the Hanford Site in southeastern Washington.
                                            The Hanford Site is run by a Department contractor. The fuel
                                            is currently stored in canisters that are kept in two enclosed
                                            water-filled pools known as K Basins. In the early 1990s, the
                                            Richland Operations Office initiated its Spent Nuclear Fuel
                                            Project aimed at decreasing human and environmental risks
                                            by removing spent fuel from present storage conditions,
                                            cleaning and repackaging it into multi-canister overpacks, and
        Spent fuel shipment cask for
     moving spent fuel from K Basins to     transporting the overpacks to interim dry storage.
       new canister storage building,
     Hanford Site, Richland, Washington
                                            In December 1998, the Hanford Federal Facility Agreement
                                            and Consent Order, a Tri-Party Agreement between the
                                            Department, the Environmental Protection Agency, and the
                                            State of Washington, was modified to address the cleanup
                                            process of the K Basins. The modified agreement set forth a
                                            number of enforceable milestones associated with removing
                                            spent fuel from the K Basins. The Agreement requires the
                                            Department to remove 190 overpacks by December 31, 2002;
                                            121 additional overpacks by December 31, 2003; and all
                                            remaining spent fuel, a total of about 400 overpacks, by
                                            July 31, 2004. An audit was conducted to determine whether
                                            the Department is on schedule to meet the spent fuel removal
                                            milestones.

           Nuclear chemical operator        The audit found that, although the Department had planned to
      attaching hoses to ports in the top
     of a multi-canister overpack holding   move approximately 66 overpacks from the K Basins to dry
      290-300 irradiated fuel assemblies    storage by March 20, 2002, only 50 overpacks had been
       from Hanford’s K Basins, in the
          cold vacuum drying facility,      moved by that date. More significantly, persistent equipment
                 Hanford Site               problems and process complexities kept the Department from


20
                                           At Your Service

                                  operating at its planned full production schedule of 16
                                  overpacks per month. The OIG determined that without
                                  effectively overcoming these issues and implementing an
                                  adequate plan for cleanup, the Department will not meet any
                                  of the milestones established in the Tri-Party Agreement
                                  relating to the cleanup of the K Basins.

                                  The OIG recommended that the Department reevaluate its
                                  production schedule and, as required, amend it to reflect
                                  achievable production levels. Department management
                                  generally agreed with the facts presented but did not agree
                                  with all conclusions and recommendations. Management
                                  stated that although the K Basin schedule is aggressive, it is
                                  achievable, and, therefore, reevaluating the Department’s
                                  approach is premature. While the OIG respects the positive
                                  nature of this position, the evidence gathered during the audit
                                  confirms that achievement of current Tri-Party Agreement
                                  milestones is at risk. Consequently, the OIG believes that
                                  additional analysis of the schedule and challenges facing the
                                  project is warranted. (IG-0552)

                                  Salt Processing Project at Savannah River
                                  The Department’s Savannah River Site stores approximately
                                  38 million gallons of high-level waste, including 35 million
                                  gallons of salt waste and 3 million gallons of sludge. To treat
                                  salt waste, the Department originally planned to process the
                                  waste through the Savannah River Site’s In-Tank
                                  Precipitation Facility. In February 1998, however, the
                                  Department suspended operation of the Facility because it
                                  could not be operated safely. As a result, the Department
                                  searched for an alternative treatment technology for waste,
                                  and, in June 2001, issued its Salt Processing Alternatives
                                  Final Supplemental Environmental Impact Statement. The
In-Tank Precipitation Facility,   impact statement narrowed the alternatives to four treatment
    Savannah River Site           technologies: small tank precipitation; ion exchange; solvent
                                  extraction; and direct disposal in grout. In October 2001, the
                                  Department announced the selection of solvent extraction as
                                  the preferred treatment technology.

                                  An audit was conducted to determine whether the solvent
                                  extraction method was the safest and most cost-effective
                                  alternative for treating salt waste at the Savannah River Site.
                                  The audit found that the Department’s preferred treatment



                                                                                               21
                                                    At Your Service

                                           technology, solvent extraction, was not necessarily the safest
                                           and most cost-effective means of treating salt waste.
                                           Although all four treatment alternatives were considered safe,
                                           in almost every scenario evaluated by the Department the
                                           direct disposal in grout technology posed less risk to on-
                                           site workers, the general public, and the environment.
                                           Additionally, direct disposal appeared to be more cost-
                                           effective than solvent extractions.

                                           The OIG recommended that the Manager, Savannah River
                                           Operations Office: (1) reevaluate the direct disposal
                                           alternative to confirm that it is the most cost-effective
                                           alternative for treating salt waste; (2) immediately petition to
                                           obtain regulatory approval and public support for the direct
                                           disposal alternative if it is proven to be the most cost-effective
                                           alternative; and (3) not proceed beyond the conceptual phase
                                           of the contract for the Salt Waste Processing Facility until a
                                           regulatory decision on the acceptability of the direct disposal
                                           alternative has been obtained or until the need for this
                                           disposal path is reaffirmed by the Assistant Secretary for
                                           Environmental Management. Department management
                                           concurred with the overall approach to pursue the safest and
                                           most cost-effective method for salt waste disposition.
                                           However, management did not concur with the OIG’s specific
                                           recommendations or propose any changes to its current salt
                                           processing plan. (IG-0565)

                                           Closure of the Fernald Environmental
                                           Management Project Behind Schedule
                                           Congress established the Defense Facilities Closure Projects
                                           account (Closure Account) in 1997 to help focus management
                                           attention on cleanup activities at selected Department sites.
                                           Congress expected the Department to find ways to accelerate
                                           cleanup activities at the sites and ensure that site closure was
                                           achieved by the end of FY 2006. Also, Congress required the
                                           Department to seek the resources necessary to keep these
                                           projects on schedule for closure in 2006 or earlier. The
                                           Closure Account provided funding to the Department for the
                                           accelerated cleanup of the Fernald Environmental
                                           Management Project (Fernald). Through December 2001, the
       Waste pits project rail yard with
     170 railcars, Fernald Environmental
                                           Department spent about $2.8 billion at Fernald. Furthermore,
             Management Project            Fluor Fernald, Inc. (Fluor), the contractor for the project,




22
                     At Your Service

             estimates that it will need an additional $1.7 billion to achieve
             site closure.

             The OIG conducted an audit to determine whether Fernald
             was on schedule to achieve cleanup and closure in FY 2006.
             The audit determined that as of December 2001, only about
             35 percent of cleanup activities required to achieve site
             closure had been completed, and Fluor’s newest baseline
             estimate was that site closure would not be achieved until
             December 2009. The audit disclosed that the Department did
             not seek an adequate funding level to ensure closure by 2006,
             nor had the Department or Fluor inserted necessary
             requirements in the relevant contractual instrument to
efficiency

             effectuate a 2006 cleanup. Further, the Department could
             incur about $152 million in additional infrastructure support
             costs at the site if closure is completed in 2009 rather than
             2006, as planned.

             The OIG recommended that the Assistant Secretary for
             Environmental Management: (1) ensure that project
             completion dates and funding requests are based on current
             and complete project baselines; (2) request adequate funding
             to achieve site closure in FY 2006 as required by Congress;
             and (3) notify the Secretary of Energy and Congress if the
             FY 2006 closure deadline cannot be achieved. The OIG also
             recommended that the Manager, Ohio Field Office:
             (1) modify the Fluor contract to require site closure in
             FY 2006; and (2) require Fluor to immediately develop a
             project baseline that supports achieving the FY 2006 site
             closure deadline.

             Department management agreed with all of the
             recommendations except modifying the Fluor contract to
             require site closure in FY 2006. (IG-0555)

             Rocky Flats Environmental Technology Site
             Unable to Meet Target Date for Completing
             Plutonium Stabilization and Packaging
             Plutonium Metals and Oxides
             A prerequisite to closure of the Rocky Flats Environmental
             Technology Site (Rocky Flats) is the removal of 9,800
             kilograms of plutonium metals and oxides stored at the site.
             Rocky Flats estimates that these metals and oxides will be


                                                                          23
                                                    At Your Service

                                            packaged into 1,900 containers prior to being shipped to the
                                            Savannah River Site. In 1998, the Department established a
                                            target for stabilizing and packaging the plutonium at Rocky
                                            Flats by May 31, 2002. To do so, the Department procured
                                            and installed the Plutonium Stabilization and Packaging
                                            System (Stabilization System) at Rocky Flats, a machine
                                            operated by the Rocky Flats contractor Kaiser-Hill Co., LLC
                                            (Kaiser-Hill).

                                            An audit was conducted to determine whether Rocky Flats
                                            would be able to stabilize and package its plutonium by the
                                            May 31, 2002, target. During 2001, it became clear that
                                            Rocky Flats would not meet the May 31, 2002, target. Given
                                            current Stabilization System operation levels, less than half of
                                            the 1,900 containers would be produced by the target date due
                                            to late startup of the Stabilization System and higher than
                                            expected equipment failures. Also, Kaiser-Hill had not
                                            developed a detailed, long-term production schedule to ensure
                                            that the last container would be produced by the target date.
                                            Furthermore, the Department’s Rocky Flats Field Office did
     Rocky Flats - View looking northwest   not ensure that a contingency plan was prepared in the event
       of Building 776/777, Rocky Flats
       Environmental Technology Site,       that production failed. As a result, the resources devoted to
              Golden, Colorado              running the Stabilization System cannot yet be redirected to
                                            other aspects of site cleanup and until the 1,900 containers are
                                            shipped offsite, the Rocky Flats Protected Area that houses
                                            the plutonium must remain open at a cost of $3.6 million per
                                            month. Each missed milestone increases the risk of delays to
                                            site closure, at an estimated cost of at least $6 million more
                                            per month.

                                            The OIG recommended that the Manager, Rocky Flats Field
                                            Office, direct Kaiser-Hill to: (1) develop a long-term,
                                            comprehensive, and detailed schedule to show when
                                            production can realistically be completed; and (2) prepare a
                                            contingency plan for plutonium stabilization and packaging in
                                            the event that the Stabilization System experiences a
                                            catastrophic failure. The Rocky Flats Field Office agreed
                                            with the OIG recommendations and stated that it developed a
                                            long-term production schedule for the Stabilization System
                                            based on 6 months of operational experience. Management
                                            also stated that it has implemented extraordinary levels of
                                            management oversight to deal with Stabilization System
                                            contingencies. (IG-0554)




24
                        At Your Service

                Subcontractor Pleads Guilty to Illegal Storage of
                Hazardous Waste
                A joint investigation by the OIG, as part of the East
                Tennessee Environmental Crimes Task Force,
                determined that over a 3-year period a Department
                subcontractor in Oak Ridge, Tennessee, illegally stored
                hazardous waste in violation of the Resource
                Conservation and Recovery Act. The investigation
                found that 28 of 450 sample containers stored by the
effectiveness
                subcontractor contained 15,232 pounds of hazardous
                waste for which the company did not have a Resource
                Conservation and Recovery Act permit.

                The subcontractor pleaded guilty to a felony violation of
                42 U.S.C. Section 6928(d)(2)(A) (Storing Hazardous
                Waste Without a Permit) and was ordered to pay $35,400
                in fines and penalties. The subcontractor previously paid
                a $100,000 civil penalty assessed by the Environmental
                Protection Agency in November 2000. In addition, the
                investigation resulted in payment by the subcontractor’s
                parent corporation of approximately $14.5 million in
                documented remediation and disposal costs. (1990R003)

                Subject Sentenced for Clean Water Act Violation

                Another joint investigation by the OIG, as part of the
                East Tennessee Environmental Crimes Task Force,
                determined that a private individual discharged more
                than 500,000 gallons of “black liquor” into the Emory
                River. The river flows into the Clinch River, which runs
                through the Department’s East Tennessee Technology
                Park (formerly known as K-25) in Oak Ridge,
                Tennessee. Black liquor, an environmental contaminant,
                is a by-product of the pulp and paper mill industry.

                The subject pleaded guilty to a one-count violation of the
                Clean Water Act [33 U.S.C. Sections 1311(a) and 1319
                (c)(1)] and was sentenced to 12 months’ home confinement;
                2 years’ supervised probation; 300 hours of community
                service; and a fine of $84,956.64. (I02OR003)




                                                                            25
                       At Your Service


                    Contract Administration
               The Department’s programs are largely accomplished through
               contractors that operate and manage a broad range of
               scientific and production activities and facilities for the
               Department. These contracts represent about 67 percent of
               the Department’s annual budget. Contract administration,
               which includes project management, has been a longstanding
               challenge. The Department continues to experience
               difficulties in the management of some of its major projects.
               Since the early 1990’s, the OIG has issued a series of reports
               critical of the planning, justification, and management of
               major projects. Recent OIG reviews have found the
     economy

               following:

               Improvements Needed for Procurement
               Administration at Brookhaven National
               Laboratory
               In May 1999, the OIG evaluated certain aspects of the
               procurement function at Brookhaven National Laboratory
               (Brookhaven) and found that Brookhaven had not fully
               enforced the terms of its subcontracts for health physics
               technicians. Brookhaven is managed and operated by
               Brookhaven Science Associates, LLC. The audit
               recommended that Brookhaven strengthen its administration
               of subcontracts. The Department agreed with the OIG
               recommendations and directed Brookhaven to implement
               improvements. At the request of the Department’s
               Brookhaven Area Office and to gauge the sufficiency of
               corrective actions, the OIG initiated a follow-on audit.

               The audit found that, while Brookhaven had initiated certain
               improvements, it did not always properly administer
               procurements. Specifically, Brookhaven did not: (1) provide
               the Department with required advance notice for certain
               procurement actions, including those that exceeded specified
               dollar thresholds; (2) prepare adequate justification for
               noncompetitive procurements or exemptions from
               requirements of the Buy American Act; and (3) accurately
               maintain procurement data on small business contracting and
               small purchases. Additionally, Brookhaven had not provided
               adequate training for acquisition staff, implemented


26
                     At Your Service

             appropriate control measures, and effectively implemented an
             assessment and performance measurement program. As a
             consequence, neither the Department nor Brookhaven had
             full assurance that competition was adequate and that
             procurement awards provided the best value and were in the
             best interests of the Government. Furthermore, inaccuracies
             in its procurement database contributed to Brookhaven
             overstating its small business contracting activity by about
             $10 million in FY 2000 and $12 million in FY 2001.

             The OIG recommended that the Manager, Chicago
             Operations Office, direct Brookhaven to give priority
             attention to performing a series of corrective actions and
efficiency

             incorporate completion of the actions into a specific
             performance measurement that must be attained within the
             next fiscal year. The OIG also recommended that the
             Manager establish performance measures to monitor the
             quality and effectiveness of Brookhaven’s procurement
             function.

             Department management agreed with the recommendations
             and stated that Brookhaven had been working to improve its
             procurement system and had begun initiating changes that
             will comply with the recommendations. (CR-B-02-02)

             Cost Sharing at Ashtabula Needs Further
             Evaluation
             From 1952 through 1988, RMI Titanium Company (RMI), a
             private company, performed work for the Department and its
             predecessor agencies as well as for various commercial
             customers. RMI’s commercial work involved processing
             uranium and non-radioactive metals, such as copper and
             copper alloys. Historically, the Federal Government has not
             reimbursed private companies for cleanup activities related to
             their commercial operations. However, in March 1993, the
             Department awarded RMI a 10-year, cost-reimbursable
             contract to cleanup the RMI site in its entirety as well as
             adjacent grounds, to a level that permits release of the site for
             unrestricted use.

             The site remediation, now referred to as the Ashtabula
             Environmental Management Project, is projected to cost
             approximately $300 million. Through FY 2001, the


                                                                          27
                                           At Your Service

                                   Department has spent about $103 million on this effort. The
                                   OIG conducted an audit of the project to determine whether
                                   RMI should pay a portion of the Ashtabula remediation costs.

                                   The audit was unable to ascertain a clear rationale for the
                                   Department accepting full financial responsibility for
                                   remediating Ashtabula. The site was, and continues to be,
                                   privately operated. RMI’s copper work and a portion of its
                                   uranium work were performed for commercial customers;
                                   however, the Department has paid all of the costs associated
                                   with the decontamination and restoration of Ashtabula.
                                   Information available at the time of the audit suggests that the
                                   Department did not adequately evaluate cost-sharing options
                                   when negotiating the 1993 remediation contract. With the
                                   contract’s expiration in 2003, the Department has an
                                   opportunity to negotiate an agreement for the remaining
                                   cleanup work that requires RMI and the Government to share
                                   costs in closer proportion to the benefits originally derived
                                   from site operations. It is the OIG’s opinion that reasonable
                                   cost-sharing provisions in future contracts at Ashtabula could
                                   save taxpayers as much as $34 million.

                                   Management did not agree with the recommendations relating
                                   to cost sharing. The Ohio Field Office did, however, agree to
                                   evaluate the impact of RMI’s commercial work on the cost of
                                   the cleanup and to factor the results of this evaluation into
                                   future contracts. In addition, management agreed to consider
                                   discontinuing fee payments in future contracts as the
                                   Department evaluates options to effectively liquidate the
                                   Department’s liability at Ashtabula. (IG-0558)

                                   The Department Needs to Use Project
                                   Management Controls to Avoid Costs and
                                   Schedule Overruns

                                   At the request of the Administrator, NNSA, the OIG
                                   conducted an expedited review of efforts to construct the
     Intermediate Tritium Vault,   Tritium Extraction Facility at the Department’s Savannah
         Savannah River Site       River Site. The Administrator expressed concerns that the
                                   Tritium Extraction Facility may be over budget and behind
                                   schedule. The current baseline for the project, established in
                                   1999, provided that the Tritium Extraction Facility was to be
                                   completed by February 2006 at a cost of $401 million and
                                   that it was to produce 3 kilograms of tritium per year.


28
                        At Your Service


                The audit found that the Tritium Extraction Facility will cost
                substantially more than the planned $401 million. Further,
                based on current progress, it is unlikely that the facility will
                be completed by February 2006. In fact, key project
                management officials have estimated that: (1) the total
                project cost could increase to as much as $500 million; (2) the
                facility may not be completed until December 2006; and (3)
                under certain scenarios, it may not contain all elements of the
                original specifications. Completion of the Tritium Extraction
effectiveness
                Facility within its baseline cost, schedule, and scope was in
                jeopardy because the integrated Federal and contractor
                project team had not made full use of available project
                management controls. As a consequence, the Tritium
                Extraction Facility lacks a viable baseline and NNSA cannot
                be assured that the facility will be available when needed or
                that project funds are being expended efficiently.

                The OIG recommended a series of specific actions aimed at
                strengthening the Tritium Extraction Facility Project. The
                OIG also made recommendations that have broader
                applicability in efforts to enhance and revitalize the nuclear
                weapons program. Management agreed with the OIG
                recommendations. (IG-0560)

                   Performance Management
                Performance management challenges are not unique to the
                Department. In fact, performance measures in the Federal
                Government as a whole tend to be ill-defined and not
                properly integrated into agency budget submissions or the
                management and operation of agencies. This was recognized
                in the President’s Fiscal Year 2002 Management Agenda,
                which identified Budget and Performance Integration as a
                Governmentwide initiative for FY 2002. During this period,
                the OIG issued the following report:

                The Office of Environmental Management’s
                Performance Measures Fail to Capture Overall
                Program Results
                The Office of Environmental Management established
                corporate performance measures and project-specific budget
                milestones as the primary mechanisms to measure program


                                                                             29
                       At Your Service

               performance. An audit was conducted to determine whether
               Environmental Management’s performance measures reflect
               overall program performance.

               The audit found that, despite the existence of numerous
               performance measures at the corporate and project level, such
               measures did not capture overall program results.
               Specifically, the measures did not cover the majority of
               Environmental Management’s cleanup projects or budgets,
               capture overall program performance, or address risk
               reduction attributes. It was also observed that although the
               cleanup program experienced substantial cost growth and
               schedule slippages, the Department consistently reported that
               the program was generally successful in meeting corporate
     economy

               goals. Rather than focusing on overall program results,
               Department management chose to focus on the measurement
               of discrete accomplishments. As a result, the Department was
               deprived of a valuable tool for monitoring the progress of its
               cleanup program. Periodic reporting of information on
               overall cost and schedule performance could have focused
               management’s attention on trends in cost growth of
               $39 billion and schedule slippages of almost 6 years.

               The OIG recommended that the Assistant Secretary for
               Environmental Management develop performance
               measure mechanisms that: (1) supplement existing
               corporate performance measures and provide information
               on overall cost and schedule performance; and (2)
               capture changes in risk across Environmental
               Management’s site cleanup activities. As the cleanup
               program moves into an accelerated, risk-based cleanup
               strategy, such a mechanism should highlight whether the
               program’s efforts were successful in reducing or
               eliminating risks to public health, workers, and the
               environment. Department management agreed with the
               OIG recommendations and developed a corrective action
               plan to improve existing performance measurement
               mechanisms. (IG-0561)

                  Research and Development
                  Investment
               Science and technology are critically important to keeping the
               Nation’s economy competitive and for addressing challenges


30
                                                     At Your Service

                                            faced in areas such as health care, defense, energy production
                                            and use, anti-terrorism, and the environment. During this
                                            reporting period, the OIG completed reviews that examined
                                            whether the Department was managing Research and
                                            Development activities efficiently.

                                            Lawrence Berkeley National Laboratory Advance
                                            Light Source Beam Lines Not Fully Utilized
                                            The Department’s Office of Basic Energy Sciences maintains
                                            four Synchrotron Radiation Light Source facilities designed
                                            to collect data concerning the structure of matter. The
                                            Department refers to these facilities as “user facilities” as
Artist’s rendering of the Advanced Light    they are made available to a variety of private sector,
      Source at Lawrence Berkeley           commercial, and educational research entities. These
           National Laboratory
                                            facilities are major instruments for enhancing the Nation’s
                                            science base.

                                            An OIG audit focused on two of the four facilities, the
                                            Advanced Light Source located at Lawrence Berkeley
                                            National Laboratory (Berkeley) and the Stanford Synchrotron
                                            Radiation Laboratory located at the Stanford Linear
                                            Accelerator Center (Stanford). Both of these facilities
                                            generate and deliver soft x-ray and vacuum ultra-violet light
                                            in the form of beams and are operated by facilities
                                            management contractors. Scientists at Berkeley and Stanford
                                            are allocated beam line time to perform a variety of research.
                                            The audit was conducted to determine whether beam lines at
                                            these facilities were being used to the fullest extent.

                                            The audit determined that the beam lines at Stanford were
                                            utilized to the fullest extent practicable. This was not the case
                                            at the Berkeley facility. Specifically, beam lines at Berkeley
                                            were idle 35 percent of the time. During the same period, 150
                                            scientifically valid research proposals had been rejected
                                            because Berkeley did not have a centralized scheduling
                                            system and was, therefore, unaware that additional beam time
                                            was available. In addition, the Office of Basic Energy
The beam line tunnel at Stanford Linear     Sciences did not provide clear guidance with regard to
Accelerator Center, Palo Alto, California   tracking and reporting use and did not have performance
                                            measures in place to evaluate the effectiveness of its user
                                            facilities. As a result, opportunities to conduct valuable
                                            research were lost.



                                                                                                         31
                                                   At Your Service

                                          The OIG recommended that the Office of Basic Energy
                                          Sciences: (1) require Berkeley to establish a centralized
                                          scheduling system and ensure that participating research
                                          teams use their scheduled time; (2) require facility managers
                                          to report on the actual use of Synchrotron facilities; and
                                          (3) establish meaningful performance measures that can be
                                          used to evaluate management of its user facilities. Given the
                                          audit results, the OIG also discussed with management
                                          concerns about plans to construct additional beam lines at
                                          Berkeley at a cost of $5-10 million per line. The OIG noted
                                          that such further expansion should be carefully considered.
                                          Department management concurred with the finding and
                                          recommendations. (IG-0562)

                                          Advanced Vitrification System
                                          The Department stores a substantial quantity of high-level
                                          radioactive waste, requiring treatment and eventual disposal,
                                          at its Hanford Site in Richland, Washington. In 1998 in
                                          response to an unsolicited proposal, the Department awarded
                                          a contract to the Radioactive Isolation Consortium, LLC,
                                          which claimed that a technology it was developing would
                                          accelerate the Hanford vitrification schedule and save tens of
                                          billions of dollars. The process was known as the Advanced
                                          Vitrication System.

                                          The OIG conducted an audit which disclosed that efforts to
                                          develop and deploy the Advanced Vitrication System face a
                                          number of significant technical challenges that should be
                                          addressed before the Department funds additional research on
     Hanford Waste Vitrification Plant,   the technology. Evaluations conducted by independent
          Richland, Washington            reviewers and by Department staff over the past 5 years have
                                          raised serious doubts about the viability of the Advanced
                                          Vitrication System and the likelihood that it will deliver on
                                          the benefits promised. One review, for example, concluded
                                          that the Radioactive Isolation Consortium failed to prove that
                                          the Advanced Vitrication System process produced a waste
                                          form acceptable for storage in a permanent repository. Other
                                          studies indicated that potential cost savings were substantially
                                          overstated and that planned reductions in the risk exposure to
                                          workers could not be substantiated. While one independent
                                          study concluded that the Advanced Vitrication System
                                          process had merit, its authors identified at least 15 significant
                                          uncertainties or technical challenges that would need to be
                                          overcome.

32
                     At Your Service

             The Department also had not developed specific
             performance measures relating to the evaluation and
             selection of alternative vitrification technologies. To its
             credit, however, the Department planned to initiate a
             business plan evaluation of the Advanced Vitrication
             System technology. Hopefully, the review will provide a
             more definitive assessment on the viability of using the
             Advanced Vitrication System.

             The OIG recommended that the Assistant Secretary for
             Environmental Management: (1) delay funding
             decisions on the Advanced Vitrication System until
             major uncertainties have been addressed; (2) develop
efficiency

             specific, focused performance measures to more fully
             gauge progress in evaluating and selecting an alternative
             or advanced vitrification technology; and (3) address all
             technical, programmatic, and financial challenges and
             uncertainties identified in previous studies during the
             upcoming business plan evaluation. Department
             management agreed with the OIG recommendations and
             will initiate corrective actions. (IG-0564)

                Infrastructure and Asset
                Management
             The Department’s physical infrastructure includes more than
             50 major facilities in 35 States. For several years, the OIG
             has reported that the condition of the Department’s
             infrastructure is deteriorating at an alarming pace and may be
             inadequate in the future to meet mission requirements. A
             recent infrastructure review follows:

             Audit Identifies Weaknesses in the
             Department’s Program to Dispose of Excess
             Facilities

             During the course of nuclear weapons production, the
             Department and its predecessor agencies constructed over
             20,000 facilities ranging from temporary buildings and office
             space to state of the art nuclear reactors and laboratories.
             Costs associated with these facilities, primarily for
             surveillance and maintenance, exceed $70 million annually.
             Over time, these costs are expected to rise, as will the health
             and safety risks that these buildings pose to workers and the

                                                                           33
                              At Your Service

                     environment. Many of these structures are no longer needed
                     and have been identified as excess facilities. An audit was
                     conducted to determine whether the Department has
                     prioritized facility disposition consistent with its mission
                     needs and with its goal to minimize overall costs and risks.

                     The audit found that the Department’s facility disposition
                     activities were not prioritized to balance mission
                     requirements, reduce risk, and minimize life-cycle costs. In
                     some cases, disposition plans were in conflict with
     effectiveness
                     requirements for new facilities planned for ongoing
                     missions. In other instances, facilities posing little or no risk
                     to human health and the environment were decommissioned
                     while disposition of facilities that had much higher
                     associated risks had not been addressed. Finally, sites had
                     not completed cost-benefit analyses necessary to fully
                     consider the relationship between recurring surveillance and
                     maintenance costs and one-time decommissioning costs.
                     These situations arose because the Department had not:
                     (1) developed a corporate approach for disposition activities;
                     (2) collected and reported reliable data on costs associated
                     with disposition activities or on decommissioning
                     performance; and (3) designated sufficient funds to carry out
                     an effective disposition program.

                     The OIG recommended that the Director, Office of
                     Management, Budget and Evaluation/Chief Financial
                     Officer, work with the NNSA, the Office of Science, and
                     the Office of Environmental Management to: (1) develop
                     a corporate approach to managing infrastructure;
                     (2) identify alternative approaches for funding disposition
                     activities; and (3) develop performance measures that
                     convey the true nature of progress being made in
                     eliminating excess facilities. Department management
                     agreed in principle with the OIG recommendations but
                     commented that the Office of Environmental
                     Management’s primary mission is to complete cleanup and
                     close sites and that disposition of excess facilities must be
                     balanced against the risk and cost associated with other
                     cleanup requirements. (IG-0550)




34
                                        At Your Service


                                   Energy Supply
                                The United States imports more than 53 percent of its
                                petroleum, much of it coming from the Persian Gulf region.
                                The Department estimates that this will increase to 62 percent
                                by the year 2020. In 1990, Congress declared that
                                dependence over 50 percent on foreign oil should be
                                considered a “peril point.” Recent world events have
                                underscored the paramount importance of maintaining an
Did you know?
                                adequate energy supply. OIG reviews have disclosed certain
About 1.5 billion gallons of    instances where the Department was not achieving the
ethanol are produced each       maximum benefit from its energy-related programs.
year in the United States.      For example:
Most of it is made from corn.

Source: Just the Basics:        The Department Has Not Made Satisfactory
Ethanol, Office of              Progress in Reaching Alternative Fuels Use Goals
Transportation Technologies,
U.S. Department of Energy
Website
                                Since the 1970’s, various strategies have been pursued to
                                address concerns relating to U.S. dependence on foreign
                                petroleum. The Department of Energy, by virtue of its
                                mission, has been designated as a leader in this endeavor. As
                                one element of its effort, the Department has set goals, based
                                on statutory requirements, for replacing its own use of
                                petroleum-based motor fuels with alternative fuels, such as
                                compressed natural gas, propane, ethanol, bio-diesel, and
                                electricity. These goals include reducing its petroleum
                                consumption by 20 percent by the year 2005 and acquiring
                                and using light-duty vehicles that operate on alternative fuels.
                                The success of the Department’s internal effort has significant
                                implications for the national strategy in this arena.

                                The OIG conducted an audit to determine whether actions
                                taken by the Department will contribute to reaching its own
                                alternative fuels goals. The audit determined that the
                                Department had essentially satisfied its objective of acquiring
                                vehicles capable of operating on alternative fuels. The audit
                                disclosed, however, that many of these vehicles were, in fact,
                                still being operated using petroleum-based motor fuels. Thus,
                                the Department had not made satisfactory progress in
                                reaching its goals for alternative fuels use. Driver resistance
                                and market conditions contributed to these results. The




                                                                                            35
                        At Your Service

               current lack of alternative fuels infrastructure, such as readily
               available filling stations, contributed to the problem. Under
               the circumstances, program success in the near term is highly
               questionable.

               The OIG recommended that the Department adopt a series of
               specific actions to increase the use of alternative fuels in
               Department vehicles. To the extent that current goals are
               unrealistic, impractical, or economically inefficient, the OIG
               recommended that the Department develop new strategies to
               achieving program success. This might require certain
               legislative initiatives. Department management stated that it
               had already taken actions to meet petroleum replacement
               goals, but recognized that there was room for improvement.
     economy

               To that end, management agreed with the OIG
               recommendations and proposed corrective actions to
               implement them. (IG-0553)

                   Human Capital
               The President’s Governmentwide Management Initiative calls
               for Strategic Management of Human Capital. Like the
               Federal workforce as a whole, the Department faces the
               challenge of a workforce comprised of workers close to
               retirement age. The OIG has been monitoring the human
               capital issue through its role in the Federal Managers’
               Financial Integrity Act process and other audit work.
               Although the Office has no specific human capital reports for
               the current period, several significant reviews are underway,
               and the OIG will continue to monitor this important
               management challenge.




36
                                            At Your Service

                                    Congressional Responses



                                    D
Other Significant Accomplishments


                                               uring this reporting period, the OIG received
                                    26 requests for information from Congress, provided
                                    information in 33 instances to Congress, briefed
                                    Committee staff on 4 occasions, and testified at
                                    1 hearing.

                                    President’s Council on Integrity and
                                    Efficiency Audit Committee
                                    The OIG is an active member and participant on the
                                    President’s Council on Integrity and Efficiency (PCIE) Audit
                                    Committee. Inspector General Gregory H. Friedman has
                                    served as Chairman of the Committee since May 1999. This
                                    Committee leads the Federal audit community in key efforts
                                    to facilitate the President’s Management Reform Agenda by
                                    forming task forces and working collaboratively with various
                                    elements throughout Federal Government. Most recently, the
                                    Office participated in the Committee’s revision of the
                                    “Guide for Conducting External Quality Control Reviews of
                                    the Audit Operations of Offices of Inspector General” and the
                                    revision of the PCIE Peer Review Assignments for the
                                    FY 2003-2004 review cycles.

                                    Quality Standards for Investigations
                                    This Office is also spearheading an effort to update the
                                    Quality Standards for Investigations published by the PCIE,
                                    in coordination with the entire OIG community. The
                                    guidelines are applicable to activities conducted by criminal
                                    investigators working for the OIGs affiliated with the PCIE
                                    and the Executive Council on Integrity and Efficiency.

                                    Qui Tams
                                    Since 1996, the OIG has been instrumental in working with
                                    the Department of Justice (DOJ) in Qui Tam cases in which it
                                    is alleged that a Department contractor or grantee has




                                                                                               37
                                               At Your Service

                                       submitted false claims. The OIG is currently working with
                                       the DOJ on 27 Qui Tam lawsuits involving alleged fraud
                                       against the Government in the amount of approximately
     Did you know?                     $187 million.
     The False Claims Act (Act)
     prohibits any person from         Administrative Safeguards
     “knowingly” presenting “a false
     or fraudulent claim for
     payment or approval” to the       Congressional Hearing
     Federal Government. The Act
     authorizes individual citizens    On May 1, 2002, the Inspector General testified before
     to bring private suits,
                                       the House Committee on Energy and Commerce,
     referred to as Qui Tam
     actions, to enforce the Act       Subcommittee on Oversight and Investigations, on a
     on behalf of the Government.      report issued in February 2002 that examined the
                                       Department’s purchase card program. While the Federal
     Source: False Claims Act
                                       Government has promoted the use of purchase cards,
                                       misuse of these cards has become a serious problem. In
                                       fact, some Government agencies’ purchase card
                                       programs have received widespread media attention over
                                       the last several months. Since 1998, the OIG has
                                       conducted over 20 reviews and criminal investigations in
                                       which Federal, contractor, or grantee employees were
                                       found to have misused purchase cards. Some of the
                                       OIG’s recent work in this area is described below.

                                       Department Contractor Employee Purchase Card Abuse

                                       As previously reported, two OIG investigations resulted in the
                                       conviction of three former Department contractor employees
                                       at the Idaho National Engineering and Environmental
                                       Laboratory for violations of 18 U.S.C. Section 641 (Theft of
                                       Government Property). The convictions involved misuse of
                                       Government-sponsored credit cards in the amount of
                                       $218,000.

                                       During this reporting period, the Department debarred the
                                       three former contractor employees and two individually
                                       owned businesses from Government contracting for 3 years.
                                       In addition, one of the contractor employees was sentenced to
                                       13 months’ incarceration and 3 years’ supervised probation
                                       and ordered to pay $137,446 in restitution. (I00IF00l and
                                       I011F003)

                                       An OIG investigation disclosed that over a 14-month period a
                                       contractor employee assigned to the Oak Ridge National



38
                                        At Your Service

                                Laboratory used a Government purchase card to purchase
                                non-business related consumer electronic products totaling
                                $10,804.12. These claims were submitted and paid for with
                                Federal funds.

                                The employee pleaded guilty to a one-count felony for
                                violation of 18 U.S.C. Section 287 (False Claims). The
                                employee was subsequently sentenced to 5 years’ supervised
                                probation. The court also ordered the individual to pay
                                restitution to the Department of $10,804.12 and a $100
                                special assessment fee. Thereafter, the Department debarred
Did you know?                   the individual from Government contracting for a period of 3
According to the General
                                years. (1010R009)
Services Administration,
which administers the           In addition, an OIG investigation disclosed that a former
Government wide contract for    Department grantee employee improperly charged rental cars
the Purchase Card Program, in
fiscal year 2001, over
                                and other personal expenses to a Government-funded credit
400,000 cardholders in about    card. The individual pleaded guilty to a one-count violation of
60 agencies made purchases      18 U.S.C. Section 666 (Theft Concerning Programs
totaling $13.8 billion.         Receiving Federal Funds). The subject was sentenced to 8
                                months’ confinement and 3 years’ supervised release and
Source: U.S. General
Accounting Office (GAS)         ordered to pay $37,147.65 in restitution. (I0lAL00l)
Testimony on Government
Purchase Cards, Control         Weaknesses Disclosed in Sandia National Laboratories
Weaknesses Expose Agencies      Procurement Card Program
to Fraud and Abuse
(Statement of Linda M.
Calbom, Director, Financial     The Procurement Card Program at Sandia National
Management and Assurance)       Laboratories (Sandia) provides employees with the ability to
GAO Website                     procure low value, commercially available goods and services
                                in an expeditious and easy manner. Since the mid-1990’s,
                                Sandia’s program has grown from approximately 25
                                cardholders with purchases of about $500,000 to over 1,600
                                cardholders with purchases totaling $55 million.

                                Sandia’s internal auditors reviewed the internal controls over
                                procurement cards in 1998 and 1999 and found that restricted
                                items were being purchased, receipts were not being
                                maintained, and unauthorized users were making purchases.
                                In addition, a February 2002 OIG report, U.S. Department of
                                Energy’s Purchase Card Programs - Lessons Learned
                                (101OP00l), disclosed weaknesses in the Department’s
                                system of safeguards and controls over its agency-wide
                                purchase card program. In light of the Procurement Card
                                Program’s growth and the problems previously identified by
                                Sandia Internal Audit and the OIG, the OIG conducted an


                                                                                           39
                          At Your Service

                  audit to determine whether procurement cards were being
                  appropriately utilized at Sandia.

                  The OIG review revealed instances where Sandia
                  procurement cardholders purchased restricted items, split
                  purchases to avoid transaction limits, and allowed
                  unauthorized users to make purchases. The audit determined
                  that Sandia had not enforced its existing policies and
                  procedures, nor did it have adequate controls over the
                  approval of transactions conducted through the use of
                  procurement cards.

                  The OIG recommended that the Manager, Albuquerque
     efficiency

                  Operations Office require Sandia to: (1) enforce compliance
                  with the requirements of the Procurement Manual including,
                  at a minimum, the removal of procurement cards from those
                  who inappropriately use them; (2) include a requirement in
                  the Procurement Manual that managers who approve
                  procurement card purchases must review receipts for
                  compliance with Procurement Manual requirements; (3)
                  institute a procurement card usage review and approval
                  process for managers who do not currently have their
                  purchases reviewed; and (4) include a performance measure
                  of appropriate use in the annual performance measures
                  developed for the Procurement Card Program. Department
                  management concurred with the recommendations and is in
                  the process of initiating corrective actions. (WR-B-02-03)

                  Department Employee Fined for Violations of the False
                  Claims Act

                  An OIG investigation determined that a Department
                  employee at the Office of Scientific and Technical
                  Information conspired with a Department subcontractor
                  employee to submit false Government travel and lodging
                  claims for reimbursement.

                  As part of a civil judgment, the Department employee was
                  ordered to pay treble damages in the amount of $8,494.20 and
                  was assessed an additional $52,500 in civil penalties for
                  violations of the Civil False Claims Act, 31 U.S.C. Sections
                  3729-3731.




40
                        At Your Service

                In response to an OIG Administrative Report to Management,
                the Department also removed the employee from Federal
                Service and initiated action to suspend the subcontractor
                employee’s clearance. (1000R002)

                Department Employee Pleads Guilty to Filing False
                Income Tax Returns

                A joint investigation with the Internal Revenue Service
                Criminal Investigation Division determined that a
effectiveness
                Department employee failed to report approximately $97,275
                in cash and other items of value on income tax returns filed
                between 1995 and 1998. The investigation indicated that the
                employee solicited some of the non-reported income from
                Department contractors. The employee pleaded guilty to four
                counts of violating 26 U.S.C. Section 7206 (1) (Filing False
                Income Tax Returns) and subsequently resigned. Sentencing
                is pending. (198HQ006)

                Contractor Employee Pleads Guilty to Theft
                of Public Money

                An OIG joint investigation with the FBI determined that a
                contractor employee at the Department’s Brookhaven
                National Laboratory (Brookhaven) submitted false travel
                vouchers on behalf of former Brookhaven research
                collaborators over a 7-year period in the amount of $51,130.
                During the course of the investigation, the subject made
                restitution for the full amount to the Department. The
                employee subsequently pleaded guilty to violation of 18
                U.S.C. Section 641 (Theft of Public Money). Sentencing is
                pending. (102PT003)

                Various Entities Debarred by the Department for
                Embezzlement of Community Development Funds

                In a previous Semiannual Report, the OIG reported the results
                of an investigation into allegations that managers of a non-
                profit corporation, operating under grants from the
                Department, devised a plan to set up fictitious shell
                companies to fraudulently bill charges against the grants. As
                a result of the OIG investigation, both the corporation’s
                accountant and General Manager pleaded guilty to violating
                one count of 18 U.S.C. Section 666 (Theft from Program



                                                                          41
                       At Your Service

               Receiving Federal Funds) and were sentenced. Another
               corporation employee and his wife were placed into a Pre-
               Trial Diversion Program for 1 year and ordered to repay the
               Department.

               During this reporting period, the Department debarred five
               fictitious shell companies, three corporation employees, and
               two of their spouses for a 3-year period of time from
               Government contracting. (196SR003)

               Intelligence Activities
               The OIG issued two quarterly intelligence reports pursuant to
     economy

               Executive Order 12863, “President’s Foreign Intelligence
               Advisory Board.” The Order requires the Inspectors General
               of the Intelligence Community to report to the Intelligence
               Oversight Board concerning intelligence activities that
               Inspectors General have reason to believe may be unlawful or
               contrary to Executive order or Presidential directive. No
               intelligence activities were identified that were contrary to
               Executive order or Presidential directive.

               Legislative and Regulatory Review
               The OIG coordinated and reviewed 11 legislative and
               regulatory items, as required by the Inspector General Act of
               1978 (Act). The Act requires the OIG to review existing and
               proposed legislation and regulations relating to Department
               programs and operations and to comment on the impact
               which they may have on economical and efficient operations
               of the Department.


               Hotline System
               The OIG operates a Hotline System to facilitate the reporting
               of allegations involving the programs and activities under the
               auspices of the Department. During the reporting period, the
               Hotline processed 501 complaints.




42
                     At Your Service

             Management Referral System
             The OIG operates an extensive Management Referral System.
             Under this system, selected matters received through the OIG
             Hotline or other sources are referred to the appropriate
             Department manager or other Government agency for review
             and appropriate action. Complaints referred may include
             such matters as time and attendance abuse, misuse of
             Government vehicles and equipment, violations of
             established policy, and violations of standards of conduct.

             The OIG referred 90 complaints to Department management
             and other Government agencies during this reporting period
efficiency

             and specifically requested Department management to
             respond concerning the actions taken on 15 of these
             complaints. Otherwise, Department management is asked to
             respond if it develops information or takes action that it
             believes should be reported. The following management
             responses are particularly noteworthy because they
             demonstrate management’s use of OIG information to
             stimulate positive change or to take decisive action.

                    •   The Idaho Operations Office formed an
                        assessment team to review allegations that air-
                        monitoring equipment at the Idaho National
                        Environmental and Engineering Laboratory was
                        improperly calibrated. The team identified six
                        instances in which the contractor was non-
                        compliant with calibration requirements. Idaho
                        Operations Office officials will monitor the
                        contractor’s corrective actions and will
                        communicate with the Idaho Department of
                        Environmental Quality regarding monitoring
                        practices. (I02RS021)

                    •   In response to a referral, the NNSA requested the
                        Department’s Director of Aviation Management to
                        conduct a review of the use of a Lear jet by the
                        Carlsbad Field Office. The report cited
                        “significant” management deficiencies at the
                        Albuquerque Operations Office and also revealed
                        that the Carlsbad Field Office “contributed to the
                        irregularities.” As a result, NNSA will issue a
                        Business and Operations Policy Letter enforcing


                                                                      43
                     At Your Service

                         the requirements of OMB Circular A-126,
                         “Improving the Management and Use of
                         Government Aircraft,” for all aircraft managed
                         by NNSA elements. (I01RS100)

                     • The Nevada Operations Office found merit to
                       allegations that one of its employees continually
                       abused time and attendance and utilized vehicles
                       and computers for personal use. The employee
                       resigned pending removal action. (I02RR063)
     effectiveness
                     •   The Albuquerque Operations Office reviewed
                         allegations of misappropriation of excess
                         Government property at Los Alamos National
                         Laboratory (Los Alamos). The review evaluated
                         administrative controls to determine whether
                         such controls adequately protected excess
                         Government property during the disposal process.
                         Although the review did not substantiate the
                         specific allegations, it resulted in seven
                         recommendations to improve weaknesses in
                         physical access controls and public sale practices
                         at Los Alamos. (I00RR096)

                     •   Although the Albuquerque Operations Office was
                         unable to substantiate allegations of tool theft at
                         Los Alamos, it found evidence of loose
                         accountability practices by tool-crib personnel.
                         Los Alamos subsequently improved the process
                         of tool issuing and tracking by using specialized
                         computer software at all three of its tool cribs.
                         The improved process now requires real-time
                         update of a database to reflect tool custody. All
                         tools in the tool crib are now marked so that tool-
                         crib employees can see at a glance if any tools are
                         unreturned. Hard copies of issuance documents
                         are signed and filed, and expendable items are
                         tied to a work-order number. (I01RS075)

                     •   The Paducah Site Office reviewed allegations of
                         insufficient and unclear radiological postings on
                         signs within the West Kentucky Wildlife
                         Management Area surrounding the Paducah
                         Gaseous Diffusion Plant. Based on its review,
                         the Paducah Site Office made major

44
                                                   At Your Service

                                                      improvements, such as: (1) developing and
                                                      mailing an advisory pamphlet to nearby residents
                                                      warning them to stay out of the area; (2) briefing
                                                      recreational groups about the hazards; (3)
                                                      conducting numerous inspections to police the
                                                      area for inappropriate use; and (4) adding “plain
                                                      English” signs to supplement traditional
                                                      radiological symbols and abbreviations.
                                                      (I00RS086)

                                           Diversity in the OIG Workplace
                                           The OIG undertook an aggressive recruitment effort during
                                           the reporting period. Over 30 new auditors and investigators
                                           were hired during the last two quarters of FY 2002.
                                           Specifically, 14 women and 7 minorities were hired for
                                           critical positions. The OIG took a number of proactive steps
                                           that led to filling many of these positions with minorities
OIG staff, 2002 National Organization of   including making visits to historically Black colleges and
 Black Law Enforcement Conference,
             Tampa, Florida                universities that have significant minority enrollments. OIG
                                           staff also recruited at annual conferences of the Women in
                                           Federal Law Enforcement and National Organization of
                                           Black Law Enforcement Executives. The OIG will continue
                                           to build on these accomplishments and to strengthen diversity
                                           in its workplace.




                                                                                                     45
                                                                At Your Service

                                                  AUDIT REPORTS ISSUED
                                                    April 1 to September 30, 2002

                  REPORT                                                    DATE OF                            QUESTIONED
                                                 TITLE                                        SAVINGS
                  NUMBER                                                     ISSUE                               COSTS
                   IG-0549       Idaho Operations Office Planned            04-01-02       $2,400,000,000
                                 Construction of a Waste Vitrification
                                 Facility
                   IG-0550       Disposition of the Department’s            04-03-02         $7,500,000
                                 Excess Facilities
                   IG-0551       The Department of Energy’s Pit             04-12-02
                                 Production Project
                   IG-0552       Completion of K Basins Milestones          04-15-02
 Reports Issued




                   IG-0553       Alternative Fuels Use at the               05-02-02
                                 Department of Energy
                   IG-0554       The Plutonium Stabilization and            05-13-02
                                 Packaging System at the Rocky Flats
                                 Environmental Technology Site
                   IG-0555       Closure of the Fernald Environmental       06-05-02        $152,000,000
                                 Management Project

                   IG-0556       Nuclear Materials Accounting               06-06-02
                                 Systems Modernization Initiative
                   IG-0558       Cost Sharing at the Ashtabula              06-07-02         $18,000,000
                                 Environmental Management Project
                   IG-0559       Privatization of Safety Management         06-18-02         $6,000,000
                                 Services at the Savannah River Site
                   IG-0560       The Department of Energy’s Tritium         06-24-02
                                 Extraction Facility
                   IG-0561       Environmental Management                   06-27-02
                                 Performance Measures

                   IG-0562       Synchrotron Radiation Light Sources        07-22-02
                                 at Lawrence Berkeley National
                                 Laboratory and Stanford Linear
                                 Accelerator Center




                  Additional information on the OIG, including the full text of its public reports and Department
46                management’s comments, can be found on the OIG website – www.ig.doe.gov.
                                                          At Your Service

                   IG-0564     Advanced Vitrification System           08-20-02


                   IG-0565     Salt Processing Project at the          08-27-02   $475,000,000
                               Savannah River Site

                   IG-0566     National Nuclear Security               09-09-02
                               Administration’s Test Readiness
                               Program

                   IG-0567     The Department’s Unclassified           09-09-02
                               Cyber Security Program 2002

                   IG-0568     Remote Access to Unclassified           09-13-02
                               Information Systems
Reports Issued




                   IG-0569     The Federal Energy Regulatory           09-13-02
                               Commission’s Unclassified Cyber
                               Security Program 2002
                   IG-0570     Depleted Uranium Operations at the      09-25-02     $30,000,000
                               Y-12 National Security Complex

                 CR-B-02-02    Procurement Administration at           08-22-02
                               Brookhaven National Laboratory

                 CR-C-02-01    Audit of State of Nevada Yucca          08-22-02                   $25,753
                               Mountain Oversight Funds for
                               Fiscal Year 2001

                 CR-FC-02-01   Federal Energy Regulatory               04-03-02
                               Commission’s Fiscal Year 2001
                               Financial Statement Audit

                 CR-FC-02-02   Department of Energy Isotope            04-10-02
                               Program’s Fiscal Year 2001
                               Financial Statement Audit
                 CR-FC-02-03   Uranium Enrichment Decontamination      04-12-02
                               and Decommissioning Fund’s Fiscal
                               Year 2001 Financial Statement Audit

                 CR-FC-02-04   Western Area Power Administration       04-16-02
                               Fiscal Years 2000 and 1999 Financial
                               Statement Audit
                 CR-FS-02-02   Information Technology Management       04-15-02
                               Letter on the Audit of the Department
                               of Energy’s Consolidated Financial
                               Statements for Fiscal Year 2001




                                                                                                        47
                                                           At Your Service

                  CR-L-02-03   Review of the Department’s                 04-04-02
                               Non-Nuclear Weapon Components
                               Production Availability

                  CR-L-02-04   Review of the Department’s High            04-05-02
                               Performance Computing Program

                  CR-L-02-05   Audit of the Department’s Clean Coal       08-02-02
                               Power Initiative

                  CR-L-02-06   Security Controls Over Intelligence        08-19-02
                               Systems

                  CR-L-02-07   The 2002 Evaluation of Classified          09-09-02
                               Information Systems Security Program

                  CR-L-02-08   Review of the Department of Energy’s       09-11-02
 Reports Issued




                               Management of Travel Cards

                  CR-V-02-03   Assessment of Changes to the Internal      07-02-02                 $702
                               Control Structure and Their Impact on
                               the Allowability of Costs Claimed by
                               and Reimbursed to Princeton University’s
                               Princeton Plasma Physics Laboratory
                               Under Department of Energy Contract
                               No. DE-AC02-76CH03073

                  ER-L-02-02   Funds Received From Termination            04-15-02   $6,800,000
                               of the Silo 3 Subcontract at the Fernald
                               Environmental Management Project

                  ER-L-02-03   Survey of Transuranic Waste Records        05-23-02
                               Management at the Rocky Flats
                               Environmental Technology Site

                  ER-L-02-04   Subcontracting for Environmental           07-30-02                $414,000
                               Management Projects at the Oak Ridge
                               Reservation

                  ER-L-02-05   Work for Others Projects at the            09-24-02
                               Western Area Power Administration




48
                                                         At Your Service

                 ER-V-02-02   Assessment of Changes to the           05-01-02   $350,680
                              Internal Control Structure and Their
                              Impact on the Allowability of Costs
                              Claimed by and Reimbursed to Fermi
                              National Accelerator Laboratory
                              Under Department of Energy
                              Contract No. DE-AC02-76CH03000

                 ER-V-02-03   Assessment of Changes to the           05-28-02
                              Internal Control Structure and Their
                              Impact on the Allowability of Costs
                              Claimed by and Reimbursed to
                              Bechtel Jacobs Company LLC
                              FY 2001
Reports Issued




                 ER-V-02-04   Assessment of Changes to the           05-28-02
                              Internal Control Structure and Their
                              Impact on the Allowability of
                              Costs Claimed by and Reimbursed
                              to UT-Battelle, LLC Under
                              Department of Energy Contract
                              No. DE-AC05-00OR22725

                 ER-V-02-05   Assessment of Changes to the           09-06-02   $138,000
                              Internal Control Structure and Their
                              Impact on the Allowability of
                              Costs Claimed by and Reimbursed
                              to the Bechtel BWXT Idaho, LLC
                              Under Department of Energy
                              Contract No. DE-AC07-991D13727

                 ER-V-02-06   Assessment of Changes to the           09-16-02
                              Internal Control Structure and Their
                              Impact on the Allowability of
                              Costs Claimed by and Reimbursed
                              to the Hanford Environmental
                              Health Foundation Under
                              Department of Energy Contract
                              No. DE-ACO6-9ORL11711

                 WR-B-02-03   Sandia National Laboratories           08-06-02
                              Procurement Card Program




                                                                                      49
                                                         At Your Service

                  WR-L-02-02   Review of Yucca Mountain Surface          04-11-02
                               Facilities

                  WR-L-02-03   Rocky Flats Closure Contract Quarterly    05-02-02
                               Incentive Fees

                  WR-V-02-04   Assessment of Changes to the Internal     05-23-02
                               Control Structure and Their Impact
                               on the Allowability of Costs Claimed by
                               and Reimbursed to Mason & Hanger
                               Corporation Under Department of Energy
                               Contract No. DE-AC04-91AL65030

                  WR-V-02-05   Assessment of Changes to the Internal     07-03-02
                               Control Structure and Their Impact
                               on the Allowability of Costs Claimed by
 Reports Issued




                               and Reimbursed to BWXT Pantex LLC
                               Under Department of Energy Contract
                               No. DE-AC04-00AL66620

                  WR-V-02-06   Assessment of Changes to the Internal     07-31-02   $788,271
                               Control Structure and Their Impact
                               on the Allowability of Costs Claimed by
                               and Reimbursed to Sandia Corporation
                               Under Department of Energy Contract
                               No. DE-ACO4-94AL85000

                  WR-V-02-07   Assessment of Changes to the Internal     09-12-02   $126,203
                               Control Structure and Their Impact
                               on the Allowability of Costs Claimed by
                               and Reimbursed to Los Alamos National
                               Laboratory Under Department of Energy
                               Contract No. W-7405-ENG-36

                  WR-V-02-08   Assessment of Changes to the Internal     09-12-02
                               Control Structure and Their Impact
                               on the Allowability of Costs Claimed by
                               and Reimbursed to Lawrence Livermore
                               National Laboratory Under Department
                               of Energy Contract No. W-7405-ENG-48




50
                                                             At Your Service

                 WR-V-02-09   Assessment of Changes to the Internal             09-13-02                     $659,392
                              Control Structure and Their Impact
                              on the Allowability of Costs Claimed by
                               and Reimbursed to BWXT Y-12, LLC
                              Under Department of Energy Contract
                              No. DE-AC05-00OR22800

                 WR-V-02-10   Assessment of Changes to the Internal             09-16-02
                              Control Structure and Their Impact
                              on the Allowability of Costs Claimed by
                              and Reimbursed to Los Alamos National
                              Laboratory Under Department of Energy
                              Contract No. W-7405-ENG-36
Reports Issued




                                     The OIG’s Audit Followup Action:


                                     •   OIG recommended corrective actions agreed to by the Department
                                         are tracked by the Department until complete.


                                     •   The OIG follows up on all Department nonconcurrences with OIG
                                         report recommendations.


                                     •   When the Department and the OIG disagree, the Department must
                                         prepare a Management Decision describing its position and any
                                         alternative action.


                                     •   The Department’s Office of Management, Budget and Evaluation/
                                         Chief Financial Officer reviews the Management Decisions and may
                                         convene a meeting of the Departmental Internal Control and Audit
                                         Review Council (DICARC) to achieve mutually agreeable resolution.




                                                                                                                    51
                                                            At Your Service

                                           INSPECTION REPORTS ISSUED
                                                  April 1 to September 30, 2002*

                       REPORT
                                                                 TITLE                            DATE OF ISSUE
                       NUMBER

                       IG-0557        Inspection of Department of Energy Fresh Pursuit Policies      06-06-02
                      (Classified)    and Practices (U)

                       IG-0563        Inspection of the Security of Spent Nuclear Fuel at the        07-30-02
                      (Classified)    West Valley Demonstration Project (U)

                     INS-L-02-02      Follow-on Inspection of Classified Document                    04-11-02
                                      Transmittal Process
 Reports Issued




                     INS-L-02-03      DOE Grant to Florida International University                  04-12-02

                     INS-L-02-04      Follow-up Inspection of Selected Coordination                  04-16-02
                                      Activities by the Department of Energy’s Office of
                                      Transportation Safeguards

                     INS-L-02-05      Status of Department of Energy's Counterintelligence           04-18-02
                                      Implementation Plan

                     INS-L-02-06      Follow-up Inspection of the Department of Energy’s             06-13-02
                                      Export Licensing Process for Foreign National Visits
                                      and Assignments

                     INS-L-02-07      Update of the Y-12 Tactical Response Plan                      06-19-02


                  * Does not include non-public reports.




52
                                                           At Your Service

                                             AUDIT REPORT STATISTICS
                                                  April 1 to September 30, 2002
                             The following table shows the total number of operational and financial audit reports,
                                              and the total dollar value of the recommendations.


                                               TOTAL            ONE TIME              RECURRING               TOTAL
                                              NUMBER            SAVINGS                SAVINGS               SAVINGS

              Those issued before the
              reporting period for which         22           $2,387,704,389          $179,220,670        $2,566,925,059
              no management decision
              has been made:*

              Those issued during the            52           $3,052,577,248          $45,200,000         $3,097,777,248
              reporting period:

              Those for which a
              management decision was            33           $4,276,093,604          $146,307,120        $4,422,400,724
              made during the reporting
Statistics




              period: *

              Agreed to by management:                        $1,721,770,706           $5,160,000         $1,726,930,706

              Not agreed to                                     $104,842,218           $79,027,120          $183,869,338
              by management:

              Those for which a
              management decision is             22                $7,214,702              $0               $7,214,702
              not required:

              Those for which no
              management decision had
              been made at the end of            19           $3,613,668,713           $140,233,550       $3,753,902,263
              the reporting period.*

             * The figures for dollar items include sums for which management decisions
               on the savings were deferred.




               Additional information on the OIG, including the full text of its public reports and Department
               management’s comments, can be found on the OIG website – www.ig.doe.gov.                                  53
                                                          At Your Service

                                               AUDIT REPORT STATISTICS
                                                  April 1 to September 30, 2002
                          The following table shows the total number of contract audit reports, and the total
                                      dollar value of questioned costs and unsupported costs.


                                                        TOTAL            QUESTIONED                UNSUPPORTED
                                                       NUMBER              COSTS                      COSTS

              Those issued before the reporting
              period for which no management                3               $4,432,894                   $84,241
              decision has been made:

              Those issued during the reporting
              period:                                       1                 $25,753                      $0

              Those for which a management
              decision was made during the                  0                    $0                        $0
 Statistics




              reporting period:


              Value of disallowed costs:                                         $0                        $0

              Value of costs not disallowed:                                     $0                        $0

              Those for which a management
              decision is not required:                     0                    $0                         $0

              Those for which no management
              decision had been made at the end             4               $4,458,647                   $84,241
              of the reporting period:




54
                               At Your Service

             REPORTS LACKING MANAGEMENT DECISION
             The following are audit reports issued before the beginning of the
             reporting period for which no management decisions had been made by
             the end of the reporting period. The reasons management decisions had
             not been made and the estimated dates (where available) for achieving
             management decisions are also included. These audit reports are over 6
             months old without a management decision. The Department has a
             system in place which tracks audit reports and management decisions.
             Its purpose is to ensure that recommendations and corrective actions
             indicated by audit agencies and agreed to by management are addressed
             and effected as efficiently and expeditiously as possible.

             The Contracting Officers have not yet made decisions on the following
             contract reports. The reasons for not doing so included: (1) the
             delaying of settlement of final costs questioned in audits pending
             completion of review of work papers; (2) voluminous additional
Statistics




             records; (3) additional work by the Defense Contract Audit Agency; and
             (4) completion of certain legal and contractual investigations.

             WR-C-95-01           Independent Final Audit of Contract No.
                                  DE-AC34-RIRF00025, July 26, 1990, to
                                  March 31, 1993, Wackenhut Services, Inc.,
                                  Golden, Colorado, March 14, 1999
                                  (Estimated date of closure: December 30, 2002)

             ER-C-97-01           Report on Interim Audit of Costs Incurred Under
                                  Contract No. DE-AC24-92OR219721 from
                                  October 1, 1994, to September 30, 1995, Fernald
                                  Environmental Restoration Management
                                  Corporation, Fernald, Ohio, December 20, 1996
                                  (Estimated date of closure: December 30, 2002)

             ER-C-00-03           Interim Audit of Thomas Jefferson National
                                  Accelerator Facility Costs Incurred Under
                                  Contract No. DE-AC05-84ER40150 Fiscal Year
                                  1994 Through 1999
                                  (Estimated date of closure: November 30, 2002)




                                                                                55
                            At Your Service

              Additional time was necessary to develop management decisions for
              the following reports. Further explanations for the delays follow
              each audit report.

              CR-B-99-02           Management of Unneeded Material and
                                   Chemicals, September 30, 1999

                                   Implementation/action plan and Management
                                   Decision brief to be provided to the Under
                                   Secretary for Energy, Science and
                                   Environment and the Under Secretary for
                                   Nuclear Security/Administrator for National
                                   Security Administration by December 16,
                                   2002.

              IG-0508              Stocked Inventory at the Savannah River Site,
                                   June 27, 2001
 Statistics




                                   Final negotiations on the Management
                                   Decision are proceeding. It is expected that it
                                   will be approved by November 30, 2002.

              IG-0516              Information Technology Support Services
                                   Contract, August 23, 2001

                                   All issues have been resolved and the
                                   Management Decision is in final coordination
                                   and due completion no later than October 31,
                                   2002.

              IG-0532              Progress of the Spallation Neutron Source
                                   Project, November 19, 2001

                                   The finalization of the Management Decision
                                   on this report is awaiting resolution of one
                                   outstanding issue. It is estimated that this will
                                   occur by December 30, 2002.

              IG-0537              Telecommunications Infrastructure,
                                   December 21, 2001




56
                       At Your Service

                        Issues with status updates on
                        recommendations have been resolved with
                        Management Decision submitted for final
                        signature. It is estimated that this will occur
                        by October 31, 2002.

             IG-0540    Advanced Radioisotope Power Systems Program,
                        January 14, 2002

                        The finalization of the Management Decision is
                        pending the resolution of complex issues. This is
                        expected to occur by December 30, 2002.

             IG-0545    Cyber-Related Critical Infrastructure
                        Identification and Protection Measures,
                        March 20, 2002
Statistics




                        The Management Decision is awaiting the
                        resolution of a nonconcurrence. It should be
                        made by December 30, 2002.




                                                                          57
                                                               At Your Service

                                               INVESTIGATIVE STATISTICS
                                                     April 1 to September 30, 2002

                Investigations open at the start of this reporting period                               184

                Investigations opened during this reporting period                                      67

                Investigations closed during this reporting period                                      41

                Investigations open at the end of this reporting period                                 210

                Qui Tam investigations opened                                                            2

                Total open Qui Tam investigations as of 9/30/02                                         27

                Multi-agency task force investigations opened                                           21

                Total open multi-agency task force investigations as of 9/30/02                         83

                Investigative reports to prosecutors and Department management                          12
 Statistics




                Recommendations to management for positive change and other actions                     15

                Administrative discipline and other management actions                                  42

                Suspensions/Debarments                                                                  36

                Investigations referred for prosecution                                                 18

                Accepted*                                                                               18

                Indictments                                                                             18

                Criminal convictions                                                                    18

                Pretrial diversions                                                                      1

                Civil actions                                                                            2

                Fines, settlements, recoveries**                                                   $15,509,877.46

               * Some of the investigations accepted during the 6-month period were referred for
                prosecution during a previous reporting period.
              ** Some of the money collected was the result of task force investigations.




58
                                                            At Your Service

                                               INSPECTION STATISTICS
                                                 April 1 to September 30, 2002

             Inspections open at the start of this reporting period                        56

             Inspections open during this reporting period                                 19

             Inspections closed during this reporting period                               21

             Inspections opened at the end of this reporting period                        54

             Reports issued (includes non-public reports)                                  10

             Inspection Recommendations

                    Accepted this reporting period                                         9

                    Implemented this reporting period                                      13
Statistics




             Complaints referred to Department management/others                           90

             Referrals to Department management requesting a response for OIG evaluation   15



                                                        Hotline Statistics

             Hotline calls, e-mails, letters, and other complaints                          501

             Hotline calls, e-mails, letters, and other complaints predicated               168

             Hotline referrals received via the General Accounting Office and predicated        9

             Unresolved Hotline predications from previous reporting periods                   14

             Total Hotline predications                                                     191

             Hotline predications transferred to the Management Referral System                87

             Hotline predications closed based upon preliminary OIG activity                   89

             Hotline predications pending disposition                                          15

             Total predications processed                                                   191




                                                                                                    59
                                 At Your Service




                   FEEDBACK SHEET

     The contents of the October 2002 Semiannual Report to
     Congress comply with the requirements of the Inspector
     General Act of 1978, as amended. However, there may be
     additional data which could be included or changes in
     format which would be useful to recipients of the Report.
     If you have suggestions for making the Report more
     responsive to your needs, please complete this feedback
     sheet and return it to:

                       Department of Energy
                Office of Inspector General (IG-121)
                      Washington, D.C. 20585

                  ATTN: Wilma Slaughter



     Your name:

     Your daytime telephone number:

     Your suggestion for improvement: (Please attach additional
     sheets if needed.)




60
Ap
